Supreme Court, U.S.
FILED

JAN 2 9 2021
NO.

OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES

GAWLIK,JAN.M.
PETITIONER
V.
SEMPLE,SCOTT.ET.AL,COM'R OF CONNECTICUT CORRECTIONS
RESPONDENTS

ON PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED 'STATEST SUPREME COURT OF
THE CONNECTICUT SUPREME COURT

i

PETITION FOR A WRIT OF CERTIORARI

DECEMBER 1st,2020

GAWLIK,JAN.M.
PRO-SE
C.C.I.
900 HIGHLAND AVENUE
CHESHIRE,CT.06410
(203)651-6257
ARGUING COUNSEL
OF RECORD

. FEB'S 2021

k.

•(

• .-'I

'V ■ V . ...

I.

:

v*.

QUESTIONS PRESENTED

WHERE THE-CONNECTICUT DEPARTMENT OF CORRECTION VIOLATES. THE FIRST'
AND FOURTEENTH AMENDMENTS,DENYING USED RELIGIOUS/NON-RELIGIOUS BOOKS
j

FROM PUBLISHERS WITHOUT INSPECTION,DENYING RELIGIOUS/NON-RELIGIOUS
MAGAZINES,RELIGIOUS/NON-RELIGIOUS,CIRCULARS,PAMPHLAETS,LEAFLETS,
NEWSPA-PER(.S)vFROM. . CHURCHS , MINISTRIES , ORGANIZATIONS , PRISON MINISTRIES,
l

ECT,WITHOUT INSPECTION,DENYING PRAYER CARDS WITH MATCHING ENVELOPES,
ECT,FROM CATHOLIC CHURCHS UNDER THE AUTHORITY OF THE POPE WITHOUT
INSPECTION,DENYING FAMILY/FRIENDS CHILDRENS LETTERS,DRAWINGS,ECT,
WRITTEN/COLORED IN MARKERS,CRAYONS,COLORED PENCILS,PENS,ECT,WITHOUT
INSPECTION,DENYING LAMINATED PRAYER CARDS WITH PRAYERS,SCRIPTURES )
ECT,WITHOUT INSPECTION,DOES THIS VIOLATE FREEDOM OF SPEECH,FREEDOM
OF EXPRESSION,FREEDOM OF ASSOCIATION,ECT,AND DOES THIS. VIOLATE THE
DUE PROCESS WITHOUT ANY INSPECTION THE FIRST AND FOURTEENTH AMENDMENTS OF THE UNITED STATES CONSTITUTION OF AN INCARCERATED INDIVIDUAL.
WHETHER

THE INCARCERATED INDIVIDUALS HAVE RELIGIOUS RIGHTS UNDER THE

(R.L.U.I.P.A.-RELIGIOUS LAND USE AND INSTITUTIONALIZED PERSONS ACT).

\

.rdavfa
\

e_*

5L

M l -ay

».
i

V

si
i

II.

PARTIES

DOCKETING STATEMENT OF DEPENDENTS AND COUNSEL OF RECORD**
1.) MR.SCOTT SEMPLE
COMMISSIONER OF CORRECTION
CONNECTICUT CORRECTIONS
24 WOLCOTT HILL ROAD
WETHERSFIELD,CT.06109
2.) MR.ANGEL QUIROS
DISTRICT ADMINISTRATOR
CONNECTICUT CORRECTIONS
1153 EAST STREET SOUTH
SUFFIELD,CT.06080
3.) MR.SCOTT ERFE/WARDEN
CHESHIRE.CORR.INST.
900 HIGHLAND AVENUE
CHESHIRE,CT.06410
4.) MS.SIMONE WISLOCKI/MAILHANDLER
CHESHIRE.CORR.INST.
900 HIGHLAND AVENUE
CHESHIRE,CT.06410

I

5.) ATTORNEY GENERALS OFFICE
A.A.G./STEVEN R.STROM
110 SHERMAN STREET
HARTFORD,CT.06105
FEDERAL BAR#ct01211
(COUNSEL OF RECORD)

ii

III.

TABLE OF CONTENTS

I.

QUESTIONS PRESENTED

i

II.

PARTIES

ii

III. 'TABLE OF CONTENTS

iii

IV.

TABLE OF AUTHORITIES

iv

PETITION FOR WRIT OF CERTIORARI

V

OPINIONS BELOW

V

JURISDICTION

V

CONSTITUTIONAL PROVISIONS INVOLVED

V

STATEMENT OF CASE

1

V.
VI.
VII.
VIII.
IX.

1.) THE PLAINTIFF WAS DENIED HIS CONSTITUTIONAL RIGHTS OF RELIGION,
SPEECH,FREEDOM OF WORSHIP AS CONSCIENCE DEMANDS,RELIGIOUS LITE­
RATURE, AND THE FREEDOM OF ASSOCIATION OF FAMILY UNDER FEDERAL
10
AND STATE CONSTITUTIONS
2.) DEPENDENTS VIOLATE (R.L.U.I.P.A.),RELIGIOUS LAND USE AND INSTI­
TUTIONALIZED PERSONS ACT OF 2000,FORCING PLAINTIFF TO MODIFY
HIS RELIGIOUS BELIEFS TO ADHERE INTO A RELIGION THAT IS
24
ATHEIST.
3.) DEPENDENTS AND CONNECTICUT CORRECTIONAL MAILROOMS HAVE SOPHIS­
TICATED DETECTION EQUIPMENT TO ANALYZE MAIL,PACKAGES,CONTRABAND,
CHEMICALS,AND DO NOT USE THEM,INSTEAD ON PRESUMPTION REJECTING
27
MAILS BIASLY
4.) THE TRIAL COURT JUDGE HON.STEVEN ECKER WAS ELEVATED TO THE CONN­
ECTICUT SUPREME COURT AS A JUSTICE,THE APPELLATE COURT WOULD NOT .
OVERTURN THE VIOLATIONS OF THE SUPREME COURT JUSTICE THAT PRIOR
WAS A SUPERIOR COURT JUDGE OF HIS JUDGEMENT,PLAINTIFF HAD NO CH­
ANCE IN ALL THE COURTS IN CONNECTICUT TO OBTAING
IMPARTIAL RULING
29

X.
XI.

5.) STATEMENT OF RELIEF REQUESTED

31

REASONS FOR GRANTING CERTIORARI

32

CONCLUSION

33

iii

i

/

IV.

TABLE OF AUTHORITIES

BELL V.WOLFISH,441,U.S.520(MAY 14th,1979)
MARTIN V.STRUTHERS,319,U.S.141,143(1943)
RED LION BROADCASTING CO. V.V.F.C.C.,395,U.S.367,390(1969)
STANLEY V.GEORGIA,394 U.S.557,565(1969)
BRANDENBURG V.OHIO,395,U.S.444,448(1969)..................................

10

COFONE V.MANSON,409,F.SUPP,1033(1976)........................................

11

FAKA V.MANSON,387.F.SUPP.Ill(D.CONN.1974)
JONES V.MANSON,CIVIL NO.15,441(D.CONN.1973)............................

12

WILLIAMS V.BRIMEYER,116.f.3d.351,UNITED STATES COURT
OF APPEALS/8th CIRCUIT.
MURPHY V.MISSOURI DEPT.OF CORRECTIONS,814,f.2d.1252,
1257(8th.cir.1987)
SMITH V.WADE,461 U.S.30,56,75.1.ed.2d.632,103,
S.CT.1625(1983)...................................................................................

13

BESS V.ALAMEIDA,2007.U.S.DISTRICT COURT-LEXIS 63871............

15

SHAKER V.SELSKY,391,f.3d.l06,115-16(2nd.cir.2004)
MANN V.SMITH,796,f.2d.79,82-83(5th.cir.1986)
MANICONE V.CORSO,365,f.supp.567,577(E.D.N.Y.1973)................

16

MARTIN V.TYSON,845,f.2d.1451,1454(5th.cir.1988)
MILLS V.STATE OF ALABAMA,ALA.,1966,86,S.CT.1434,384,
U.S.214,16,l.ed.484........ . . . ............................................................

17

PROCUNIER V.MARTINEZ,416,U.S.396,417,40,1.ed.2d.,
224,94,S.CT.1800(1974) .....................................................................
LAMONT V.POSTMASTER GENERAL,381 U.S.301(1965)
KLEINDIENST V.MANDEL,408 U.~S. 762-765(1972 )..............................

19

BOARD OF REGENTS V.ROTH,408 U.S.564(1972)
PERRY V.SINDERMAN,408 U.S.593(1972)............................................
SOSTRE V.McGINNIS,442 f.2d.178,199(1971)..................................
TROMBERG V.CALIFORNIA,283 U.S.359................................................

20
20
22

ROWE V.DAVIS,373 f.supp.2d.822,825-826,(N.D.IND.2005)

23

MALNAK V.YOGI,440 F.SUPP.1284(1977)
WARSOLDIER V,WOODFORD,418 f.3d.989(9th.cir.2005)........

24

HOLT V.HOBBS,135 S.CT.853(2015)
WOLFISH V.LEVI,573,f.2d.118(2nd.cir.1978)......................

26

PHELPS-ROPER V.NIXON,545 f.ed.685,690(8th.cir.2008)
DURAN V.ANAYA,642 f.supp,510,527(D.N.M.1986)................

32

LLEWELYN V.OAKLAND COUNTY PROSECUTORS OFFICE,
402, f .supp. 1379,2393 (E.D. MICH. 1975)................ .................

33

iv.

18

V.

PETITION FOR WRIT OF CERTIORARI

GAWLIK,JAN.M.,AN INMATE CURRENTLY INCARCERATED AT CHESHIRE.CORR.
INST. IN CHESHIRE,CT. AS A PRO-SE LITIGANT RESPECTFULLY PETITIONS
THIS COURT FOR A WRIT OF CERTIORARI TO REVIEW THE JUDGEMENT OF THE
CONNECTICUT SUPERIOR COURT,AND CONNECTICUT APPELLATE COURT,SUPREME COURT.
VI.

OPINIONS BELOW

THE DECISION BY THE CONNECTICUT APPELLATE COURT DENYING TO PROPE­
RLY REVIEW THE APPEAL AND EVIDENCE IS REPORTED AS (GAWLIK,JAN.M.V.SEMPLE,SCOTT.ET.AL.,APPELLATE COURT,197 CONN.83(APRIL 28th,2020).
THE CONNECTICUT SUPREME COURT DENIED CERTIFICATION PETITION FOR HE­
ARING ON OCTOBER 6th,2020.MOTION FOR RECONSIDERATION "EN.BANC",WAS
DENIED BY SUPREME COURT. ON DECEMBER Ist, 2020 .THE ORDERS OF THE CON­
NECTICUT SUPREME COURT ARE ATTACHED AT ("APPENDIX") AT:(APPN.#A-B-C).
VII. JURISDICTION
GAWLIK,JAN.M. PETITION FOR HEARING TO THE CONNECTICUT SUPREME COURT
WAS DENIED ON OCTOBER 6th,2020.EN-BANC DENIED 12/1/2020 „'INVOKES COURTS
I

JURISDICTION UNDER 28U.S.C.§1257,HAVING TIMELY FILED THIS PETITION
FOR A WRIT OF CERTIORARI WITHIN NINETY DAYS OF THE CONNECTICUT SUPR-;
EME COURTS JUDGEMENT.
VIII.

CONSTITUTIONAL PROVISIONS INVOLVED

UNITED STATES CONSTITUTION,AMENDMENT I:
CONGRESS SHALL MAKE NO LAW RESPECTING AN ESTABLISHMENT OF RELIGION,
OR PROHIBITING THE FREE EXERCISE THEREOF;OR ABRIDGING THE FREEDOM OF
SPEECH,OR OF THE PRESS;OR THE RIGHT OF THE PEOPLE PEACEABLY TO ASS­
EMBLE, AND TO PETITION THE GOVERNMENT FOR A REDRESS OF GRIEVANCES.
UNITED STATES CONSTITUTION,AMENDMENT XIV:
ALL PERSONS BORN OR NATURALIZED IN THE UNITED STATES,AND SUBJECT TO
THE JURISDICTION THEREOF,ARE CITIZENS OF THE UNITED STATES AND OF
THE STATE WHEREIN THEY RESIDE.NO STATE SHALL MAKE OR ENFORCE ANY LAW
WHICH SHALL ABRIDGE THE PRIVILEGES OR IMMUNITIES OF CITIZENS OF THE
UNITED STATES;NOR SHALL ANY STATE DEPRIVE ANY PERSON OF LIFE, LIBERTY,
OR PROPERTY,WITHOUT DUE PROCESS OF LAW;NOR DENY TO ANY PERSON WITHIN
ITS JURISDICTION THE EQUAL PROTECTION OF THE LAWS.
V.

IX.

STATEMENT OF THE CASE

THE PETITIONER IS A SELF STUDYING FUTURE CATHOLIC PRIEST THAT IS WHILE
(APPN#(E)-PLAINTIFFS CATHOLIC PRIEST STOLE PURCHASE).
INCARCERATED STUDYING THE MANY DIFFERENT REQUIRED CATHOLIC PRIEST LI­
TERATURE FOR ORDINATION TO THE CATHOLIC PRIESTHOOD,AS MANY INCARCERATED
INDIVIDUALS ARE ORDAINED WHILE IN PRISON TO THE CATHOLIC PRIESTHOOD.
WHEN INDIVIDUALS BEGIN THE STUDY OF CATHOLIC PRIESTHOOD AND INCLUDED
FIELDS OF EDUCATION,THE RQUIRED EDUCATIONAL BOOKS TO LEARN FROM,STUDY,
AND TO FURTHUR THEIR KNOWLEDGE IN PRIESTHOOD STUDIES. THIS PETITIONER
ORDERED FROM A PUBLISHER CALLED (PRESERVING CHRISTAIN PUBLICATIONS),(3)
--------------(APPN#(M)-PRESERVING CHRISTIAN PUBLICATIONS)
THREE RELIGIOUS CATHOLIC BOOKS,INWHERE THIS PUBLISHER SPECIALIZES IN
ONLY USED AND OUT OF PRINT LITERATURE AND BOOKS.THIS SPECIALTY PUBLISHER HAS

CATHOLIC ACADEMIC BOOKS THAT ARE USED FOR THE STUDY OF CATHOLIC

PRIESTHOOD,PAPAL (POPE) TEACHING,CODE OF CANON LAW 1983 OF THE CATHOLIC
CHURCH,DOGMATIC THEOLOGY,LATIN DOCTRINE AND LITERATURE THAT HAS CATHOLIC
FAITH SCRIPTURES FOR PRAYERS TO ASSIST THE FAITHFUL OF GOD CHRIST JESUS,
AND THE' BLESSED MOTHER MARY. THIS SPECIALTY PUBLISHER SELLS THEIR USED
AND OUT OF PRINT LITERATURE THAT RANGE IN AGE OF USED BOOKS FROM (lOyrsOLD TO 100+ YRS OLD),AND ARE ONE OF A KIND BOOKS AND MAY ONLY HAVE SEVE­
RAL IN THIS PUBLISHERS POSSESSION.THE USED BOOKS ARE EXTREMELY OLD AND
NEWER ABOUT HALF A CENTURY OLD CONTAIN WRITINGS THAT CANNOT BE FOUND IN
TODAYS PUBLISHERS.THIS PETITONER WHILE WITHIN INCARCERATION HAS GIVEN HIS
HEART,MIND,AND SOUL TO GOD AND IS STUDYING TO BE A CATHOLIC PRIEST AND
ATTEMPTED TO PURCHASE LITERATURE OF,(1983 CODE OF CANON LAW,XXVIII INT­
ERNATIONAL CONGRESS OF CHICAGO ON JUNE 24th,1926,AND CODE OF CANON LAW
1956).THESE (3) USED AND OUT OF PRINT BOOKS WERE REJECTED BY THE MAILROOM STATING THAT THESE RELIGIOUS CATHOLIC BOOKS ARE "CONTRABAND".
THE DEPT.OF CORRECTION HAS AN UNCONSTITUTIONAL POLICY THAT FORBIDS ALL
"USED BOOKS" IN THEIR DIRECTIVES AND SURPRESSES THE ACT TO ACADEMIC...
1.

LITERATURE IN ALL FORMS OF KNOWLEDGE.THE DEPT.OF CORRECTION IN CONNEC­
TICUT DOES NOT ALLOW "USED BOOKS" FROM AMAZON,BARNES AND NOBLE,PENGUIN,
AND PRESERVING CHRISTAIN PUBLICATIONS WHERE THIS PLAINTIFF ATTEMPTED TO
PURCHASE CATHOLIC PRIESTHOOD STUDY LITERATURE,VIOLATING,(BELL V.WOLFISH).
THE DEPT.OF CORRECTION STATES THAT PUBLISHERS THAT SELL USED BOOKS MAY
CONTAIN IN THEIR USED BOOKS DRUGS,MESSAGES,ECT,IN RELIGIOUS AND NON-RE­
LIGIOUS LITERATURE SO AS TO PUNITIVELY DENY LITERATURE WITHOUT EVEN AT
ALL INSPECTING USED AND OUT OF PRINT BOOKS.CONNECTICUT DEPT.OF CORRECTj

IONS NEARLY HALF CENTURY AGO HAS ALWAYS USED DETECTION EQUIPMENT,CHEMI­
CAL DETECTION EQUIPMENT AND A VARIETY OF WAYS TO DETECT ILLEGAL SUBSTA­
NCES , X-RAY, AND TODAY WITH THE ADVANCES IN TECHNOLOGY HAS LIMITLESS WAYS
TO DETECT ANYTHING IN ANY BOOKS,USED AND NEW.CONNECTICUT CORRECTIONS: ON
THE PRESUMPTION THAT.ALL PUBLISHERS THAT SELL ANY USED BOOKS IS CRIMI­
NAL AND PLACES CONTRABAND AND/OR ILLEGAL SUBSTANCES WITHIN THEIR USED
BOOKS.CONNECTICUT CORRECTIONS TO MINIMIZE THEIR WORKLOAD REJECTS BOOKS
WITHOUT INSPECTION AND VIOLATES FREEDOM OF SPEECH AND DUE PROCESS.
‘

CONNECTICUT DEPT.OF CORRECTIONS DENIAL OF USED AND OUT OF PRINT BOOKS
WITHOUT THE USE TO USE THEIR DETECTION EQUIPMENT THEY ALL POSSES AND TO
DENY ON THE PRESUMPTION THAT THEIR IS ALWAYS ILLEGAL CONTRABAND WITHIN
A USED BOOK IS ONLY A WAY FOR MAILROOM EMPLOYEES WORKLOADS EASIER,AND
"NO USED BOOK" POLICY INFRINGES ON THIS PLAINTIFFS CONSTITUTIONALLY
PROTECTED FREEDOM OF SPEECH. THIS PLAINTIFFS PRIESTLY LITERATURE USED
AND OUT OF PRINT BOOKS ARE REJECTED ON THE GROUNDS THAT IT IS "USED",
AND NOT FOR ITS CONTENT WHICH IS RELIGIOUS CATHOLIC LITERATURE WHICH
IS UNCONSTITUTIONAL. THE TRIAL COURT ALSO IGNORED THAT THE DEPT.OF
CORRECTION HAS CONTRABAND DETECTION EQUIPMENT AND ALWAYS HAS,TO DETECT
ILLEGAL CONTRABAND AND REFUSE TO USE IT AND WITHOUT INSPECTION DENY ALL
USED AND OUT OF PRINT BOOKS FOR IF ANY ILLICIT SUBSTANCES.

2.

THIS PLAINTIFF DONATES TO THE SICK,POOR,HUNGRY,DISABLED,HOMELESS,
CHURCHS,MISSIONS,CANCER PATIENTS,AS MUCH AS I CAN TO HELP THE UNFOR­
TUNATE PEOPLE OF THE WORLD. WHILE RESIDING WITHIN CORRECTIONAL FACI­
LITIES AND DONATING TO THE POOR,THESE ORGANIZATIONS AS A "THANK YOU",
IN RETURN SEND FREE CATHOLIC PRAYER CARDS (NOT BLANK) THAT HAVE BIBLE
(APPN#(I)-CATHOLIC PRAYER CARDS)
SCRIPTURES INSIDE THE CARDS AND OTHER CATHOLIC PRAYERS CENTRAL TO THIS
PLAINTIFFS FAITH. THESE CARDS CONTAIN CATHOLIC PRAYERS THAT ARE PRAYED
WITHIN THIS CATHOLICS PRACTICE CALLED "COMMUNION OF THE SAINTS". THE
CATHOLIC FAITH BELIEVES THAT THE BELOVED DECEASED ARE AMOUNG US AND WE
CAN COMMUNICATE WITH OUR LOVED FAMILY MEMBERS.WITHIN THESE PRAYER CARDS
THE PLAINTIFF CAN SEND TO THEIR LOVED ONES PRAYERS,VOCATIONS,PRAYERS
FOR CATHOLIC MASSES THAT ASKS THE SAINTS TO INTERCEDE FOR US.UNLIKE OT­
HER CHRISTAIN DENOMINATIONS OUTSIDE THE CATHOLIC FAITH WE BELIEVE THAT
ALL THE SAINTS CANONIZED BY THE SUPREME PONTIFF (POPE) IN ROME,ALLOW US
TO HAVE ALL THE SAINTS IN HEAVEN ALSO PRAY FOR THE SOULS OF OUR LOVED
ONES.THIS PLAINTIFF A CATHOLIC ALL HIS LIFE HAS HAD THIS CATHOLIC PRACr
«

TICE CENTRAL TO HIS FAITH AS CONSCIENCE DEMANDS OF WORSHIP IN HIS HEART.
THESE PRAYER CARDS AND MATCHING ENVELOPES THAT THESE ORGANIZATIONS SEND
TO THIS PLAINTIFF WERE ALLOWED IN MANY CORRECTIONAL FACILITIES PRIOR TO
CHESHIRE CORRECTIONAL,ONCE THIS PLAINTIFF RESIDED IN CHESHIRE CORRECTI­
ONAL THE MAILROOM CATEGORIZED THESE CATHOLIC PRAYER CARDS AS CONTRABAND.
CHESHIRE.C.I. ONCE SEPERATED THE PRAYER CARDS AND FORWARDED THE REMAIND­
ER OF THE CORRESPONDENCE,UNTIL THIS PLAINTIFF FILED A CIVIL ACTION AGAI­
NST THE MAILROOM,AND AS A PUNITIVE MEASURE TO PUNISH THIS PLAINTIFF FOR
CONSTITUTIONALLY EXERCISING HIS RIGHT TO PETITION AND REDRESS THE VIO­
LATION. THE PRAYER CARDS ARE BEING DENIED AND THE ADMINISTRATION WENT
EVEN FURTHER TO DENY ALSO THIS,PLAINTIFFS RELIGIOUS CORREPONDENCE...

3.

THAT IS WITHIN THE ENVELOPES,WHICH ALSO HAS CATHOLIC PRAYERS. THE DEPT.
OF CORRECTION WANTS TO MONOPOLIZE THEIR INCOME SELLING HOLIDAY CARDS TH­
AT HAVE SANTA CLAUSE,EASTER BUNNY,CARDS THAT SAY "SEASONS GREETINGS" &
"HAPPY HOLIDAYS",WHICH HAVE NO TRUTHFUL REFERENCE THAT "JESUS CHRISTOUR SAVIOR",THE SON OF GOD WAS BORN ON CHRISTMAS DAY,THAT. ALSO ON EAS­
TER SUNDAY "CHRIST JESUS" DIED ON THE CROSS FOR OUR SINS,SO WE MAY SPEND
ETERNITY WITH GOD. THIS PLAINTIFF IS BEING FORCED TO PURCHASE ATHEIST
CARDS WITH NO REFERENCE TO GOD,WHICH REQUIRES NO PRIOR APPROVAL,BUT,
DENIED FREE CATHOLIC PRAYER CARDS,AND EVEN WHEN A CATHOLIC REQUESTS TO
PURCHASE PRAYER CARDS CENTRAL TO HIS FAITH,IT TAKES MONTHS FOR A RESPON­
SE AND GETS DENIED.,WITH A RESPONSE THAT HOLIDAYS CARDS ARE SOLD. ON THE
COMMISARY AND FORCED TO ABANDON THIS PLAINTIFFS CATHOLIC FAITH AND PUR­
CHASE ALL ATHEIST HOLIDAY CARDS WITH NO REFERENCE TO GOD,JESUS,AND MOT­
HER MARY.THIS IS A CLEAR VIOLATION IN WHICH THE DEPT.OF CORRECTION IS
ABLE TO MODIFY THIS CATHOLICS CENTRAL FAITH INTO THE FAITH OF ATHEISM.
THE TRIAL COURT AGREED WITH THE DEFENDENTS AND STATED THAT ALSO THE
»

ORGANIZATIONS UNDER THE JURISDICTION OF THE (POPE) SUPREME PONTIFF HAS
ORGANIZATIONS THAT MAY INSERT ILLEGAL SUBSTANCES LIKE "SUBOXONE" IN
THEIR CORRESPONDENCES.THE MAILROOM HAVING TESTING EQUIPMENT AND ON THE
PRESUMPTION THAT THEY MAY CONTAIN SUBSTANCES,THEY REJECT THE ENTIRE CO­
RRESPONDENCE. THEY DO NOT TEST ANY MAIL AND PASS UNPROMULGATED MEMOS
THAT VIOLATE THE FREE SPEECH OF THE SENDER AND THE RECIPIENT ON RELI­
GIOUS LITERATURE. THIS IS NOT WHAT THIS CATHOLIC GREW UP TO BELIEVE TH­
AT EASTER ARE RABBITS AND THAT CHRISTMAS HAS SANTA CLAUSE.PLAINTIFFS
CATHOLIC BELIEF IS THAT CHRIST DIED ON THE CROSS AND CHRISTMAS IS THE
BIRTH OF OUR SAVIOR "JESUS CHRIST",ANYTHING CONTRARY IS TO DENY AND MOD­
IFY THIS CATHOLICS FAITH INTO THE RELIGION OF ATHEISM.THE TRIAL COURT
DID NOT TAKE INTO CONSIDERATION-THAT THE CATHOLIC FAITH,AND THAT THE
4.

PLAINTIFF IS TRULY DEVOTED TO GOD,JESUS,AND MOTHER MARY,AND THAT THE
COMMUNION OF THE SAINTS IS A RELIGIOUS PRACTICE AS GOING TO CHURCH,RECIEVING COMMUNION,OBTAINING SACRAMENTS THAT REQUIRE TO BE ONE WITH GOD IN
THE ETERNITY OF HEAVEN. CONNECTICUT CORRECTIONS DENYING PRAYER CARDS
WITH MATCHING ENVELOPES THAT HAS SCRIPTURE WITHIN THEM VIOLATES THE
FIRST AMENDMANT AND DUE PROCESS WITHOUT REDRESS.
THIS PLAINTIFF HAS A GODDAUGHTER THAT LOVES TO SHOW HER LOVE TO THIS
PLAINTIFF AT THE AGE OF EIGHT (8) YEARS OLD AT THE TIME OF THIS ACTION,
AND DRAWS RELIGIOUS PICTURES,DRAWINGS,AND MANY OTHER COLORFUL ART THAT
SHE SENT TO ME,WHICH WERE ALLOWED INTO CORRECTIONAL FACILITIES.NOW, THE
MAILROOM MAKES COPIES OF COLORFUL DRAWINGS OF MY GODDAUGHTERS ART THAT
(APPN#(J)-CHILDS DRAWING REJECTED)
ARE COPIED IN (BLACK AND WHITE) COPY PAPER AND NO COLOR IS PRESENTED IN
THE COPIES,THUS,TAKING AWAY THE COLOR OF THE CHILDS FEELINGS WITHIN THE
ART DPAWINGS THAT SHE FEELS IN HER HEART AND WANTS TO TRANSMIT TO THE
PLAINTIFF.THIS PLANET WE ALL LIVE IN THAT GOD OUR CREATOR MADE,EARTH,IS
FULL OF COLORS,FLOWERS OF COLORS THAT STAND OUT AND PLEASES THE EYES,.
COLORS THAT WHEN YOU LOOK AT MAKES SOUNDS IN OUR MINDS,COLORS THAT SING
TO US AND BRING OUT THE BEAUTY OF THIS WORLD THAT GOD CREATED.
GOD DID NOT MAKE THIS WORLD (BLACK & WHITE) TO BRING US FEELINGS THAT
ARE SENSELESS,GOD MADE THIS WORLD COLORFUL TO BRING AND FEEL LOVE TO
OUR HEARTS,TO BRING IN WITH COLORS FEELING WHAT GOD WANTS US TO FEEL
THROUGH COLORS WHICH SPEAK TO THE HUMAN RACE AS WORDS AND EXPRESSION
AND FEELINGS TOWARD US,GODS CHILDREN. THE PLAINTIFFS GODDAUGHTER ALSO
SPEAKS TO THIS PLAINTIFF THROUGH COLORFUL DRAWINGS AND ART,IN WHICH
THE COLORS SHE USES IN HER DRAWINGS SPEAKS OF HOW SHE FEELS AT THAT MO­
MENT, AND IS EQUIVALENT TO WRITING A LETTER WITH WORDS.CONNECTICUT CORR­
ECTIONS IS DENYING 1st AMENDMENT FREEDOM OF SPEECH AND EXPRESSION OF
THE UNITED STATES CONSTITUTION WITHOUT DUE PROCESS.

5.

THIS COMMUNICATION TO RECIEVE A BEAUTIFUL ART DRAWING FROM A (8) YEAR
OLD GODDAUGHTER SENT TO THE PLAINTIFF THROUGH-COLORS FROM- A SMALL CHILD
IS A LETTER OF HOW MUCH LOVE,SHE HAS' FOR THIS PLAINTIFF COMMUNICATING
HER FEELINGS/ THE CONNECTICUT DEPT.OF CORRECTION DENIES ANY COLORED
ART,USING CRAYONS,COLORED PENCILS,COLORED MARKERS,AND CARDS THAT HAVE
FACTORY GLITTER ON THEM,A LOVED ONES LIPSTICK WITH A KISS ON- THE LETTER.
ADMINISTRATION STATES THAT ALL THAT IS. COLORFUL IS SOAKED WITH ILLICET
DRUGS & OTHER KINDS OF CHEMICALS. THIS PLAINTIFFS CORREPONDENCES HAVE
EVEN BEEN REJECTED WHEN IT HAS WATER STAINS FROM THE POST OFFICE. HANDLING THE REGULAR MAIL IN TRANSIT. THE DEPT.OF CORRECTION IN CONNECTICUT
DOES NOT TEST FOR ANY CHEMICALS,DRUGS,SUBSTANCES,AND ONLY ON THE PRE­
SUMPTION AND VISUALLY INSPECTS AND REJECTS THIS PLAINTIFFS CORREPONDEN­
CES . CONNECTICUT CORRECTIONS HAS DETECTION EQUIPMENT FOR ALL CONTRABAND
- BUT,INSTEAD OF USING THE DETECTION EQUIPMENT THEY JUST DENY THE WHOLE
CORRESPONDENCES VIOLATING FREEDOM OF SPEECH AND EXPRESSION.THE PLAINTIFF
.PRESENTED EVIDENCE TO THE TRIAL COURT ON THE REJECTION OF COLORED ART­
WORK, COLORED, GLITTER, ECT. THE TRIAL COURT REFUSED TO RULE ON THIS ISSUE
AND GIVE ANY JUDGEMENT.
THE PLAINTIFF RECIEVES FAMILY PHOTOGRAPHS THAT HAVE MOTHERS,FATHERS,
CHILDREN,COUSINS,THAT HAVE FAMILY EVENTS OF CHRISTMAS,EASTER,BAPTISMS,
AND ARE SENT TO THE PLAINTIFF TO ENJOY FAMILY EVENTS WHILE INCARCERATED.
PHOTOGRAPHS FROM FAMILY ARE A. KEEPSAKE OF MEMORIES TO BE ENJOYED BY THE
RECIPIENT,WHERE MANY PHOTOS ARE MEANT TO BRING HAPPINESS IN A PLACE OF
'DESPAIR AND CONFINEMENT. THE DEPT.OF CORRECTION REJECTS ALL THIS PLAINT­
IFFS PHOTOGRAPHS IF ONLY (1)<IS NOT ACCEPTABLE. IF THIS PLAINTIFF RECIE­
VES A NUMBER OF PHOTOGRAPHS IN THE AMOUNT OF (20-PHOTOGRAPHS),AND ONE
• (JL ) HAS A QUESTIONABLE REASON TO REJECT, THEN THE MAILROOM REJECTS THE
ENTIRE (20-PHOTOGRAPHS) IN"THAT THE ENTIRE FAMILY PHOTOS IS SENT BACK
6.

*

TO SENDER,THUS,VIOLATING FREEDOM OF ASSOCIATION AND SPEECH OF THE 1st
AMENDMENT.PHOTOGRAPHS DO NOT NEED TO BE DRUG TESTED,JUST LOOKED THROUGH
AND REMOVE THE QUESTIONABLE PHOTO(S) AND FORWARD THE REST TO THE PLAINT­
IFF. TO CAUSE HARDSHIP THE MAILROOM DENIES ALL PHOTOS EVEN WHEN ACCEP­
TABLE . SEPERATION OF PHOTOS IS TIME CONSUMING,SO REJECTION OF ALL PHO­
TOS IS FASTER,THUS,VIOLATING THIS PLAINTIFFS FREEDOM OF ASSOCIATION AND
SPEECH.THE TRIAL COURT REFUSED TO TAKE THIS UNDER CONSIDERATION WHEN THE
PLAINTIFF HAS PRESENTED THIS ISSUE TO THE COURT.THE TRIAL COURT DID NOT
RULE ON THIS ISSUE AND DID NOT RENDER JUDGEMENT FOR THE PLAINTIFF AS HE
REQUESTED.
THE PLAINTIFF RECIEVES FROM CHURCHS UNDER THE JURISDICTION OF THE POPE
VARIOUS MAGAZINES,NEWSPAPERS IN MY NATIVE TONGUE OF POLISH THAT YOU CA­
NNOT OBTAIN A SUBSCRIPTION FOR,AS IN FLYERS,CHURCH BILLETINS,AND OTHER
CATHOLIC RELATED CHURCH LITERATURE SENT TO THIS PLAINTIFF BY CATHOLIC
CHURCHS,AND CHRISTAIN PRISON MINISTRIES ACROSS THE UNITED STATES.
CONNECTICUT CORRECTIONS MAILROOMS DOES NOT FORWARD AND REJECTS THESE
LITIRATURES FROM MINISTRIES,CHURCHS,AND PRISON MINISTRIES LITERATURE
AND CALLS THIS RELIGIOUS LITERATURE CONTRABAND. THE REJECTION OF THIS
LITERATURE IS A VIOLATION OF THIS PLAINTIFFS RELIGIOUS PRACTICE TO READ
ABOUT GOD IN THESE FREE MAGAZINES,NEWSPAPERS,AND FLYERS. WHEN A'POOR
INCARCERATED INDIVIDUAL RECIEVES LITERATURE FROM PRISON MINISTRIES,AND
GETS REJECTED,IT DENIES THIS PLAINTIFF AND INMATES THE RIGHT TO READ
ABOUT GOD.DEPT.OF CORRECTIONS WILL NOT ALLOW DONATED RELIGIOUS MATERI­
AL EVEN FROM REPUTABLE RELIGIOUS ORGANIZATIONS,BUT,THEY THEMSELVES RECIEVE AND ACCEPT FREE LITERATURE FOR THEIR OWN PERSONAL USE. THE MAILROOM ONCE ALLOWED MATERIALS FROM CHARITABLE AREAS UNDER THE DIRECTION
OF FORMER COMMISSIONERS,AND NOW CHARITABLE LITERATURE TO POOR INMATES
IS EASIER THEN TO REVIEW ITS CONTENTS AND DISTRIBUTE TO: READ INFORMAT(APPENDIX#(H)H-REJECTION NOTICES,BOOKS,ECTJ.
ION ABOUT GOD.
7.

THE TRIAL COURT DID-NOT TAKE INTO CONSIDERATION THAT. DENYING RELIGIOUS
LITERATURE FROM CHURCHS IS ALSO A'RELIGIOUS PRACTICE TO PRAY WITH THE
LITERATURE SENT FOR FREE,AND RULED THAT ALL MAGAZINES,NEWSPAPERS,FLYERS
FROM CATHOLIC CHURCHS ARE TO BE SUBSCRIPTION ONLY,DENYING FREE RELIGIOUS
MATERIALS.THE TRIAL AND APPELLATE COURTS RULINGS CURTAILS THE FREEDOM
OF SPEECH OF THE WORLD OF KNOWLEDGE TO ALL INCARCERATED INDIVIDUALS.
'

THE DEPT.OF CORRECTION HAS EQUIPMENT TO TEST FOR CONTRABAND INCLUDING
CHEMICALS,BUT,ITS EASIER TO REJECT.
THE PLAINTIFF RECIEVES FROM PRIESTS,FAMILY,AND FRIENDS,LAMINATED PRAYER
CARDS THAT HAVE PICTURES OF JESUS,PADRE PIO,MOTHER TERESA,MOTHER MARY,
ANGELS,SAINTS,ECT,AND WHEN THEY ARE SENT TO THIS PLAINTIFF THEY ARE RE­
JECTED STATING THAT PRAYER CARDS LAMINATED ARE NOT ALLOWED.THESE LAMINA­
TED PRAYER CARDS CONSIST ALSO OF THE DECEASED LOVED ONES THAT YOU RECIEVE AT FAMILY FUNERALS AND HAS THE DATE AND NAME OF THE DECEASED FAMILY
MEMBER ON THE LAMINATED CARD AND ITS NOT ALLOWED. THIS IS TO REMEMBER THE
FAMILY AND THEIR LIVES,IN WHICH LATER IN TIME YOU LOOK AT PLACES HAPPY
»

MEMORIES OF THE HAPPIER TIMES OF THEIR LIVES.THE DEPT.OF CORRECTION DOES
. NOT GIVE VALID REASONS FOR THE REJECTION OF LAMINATED PRAYER CARDS,NOR
DOES IT HAVE ANY DIRECTIVES

OR POLICIES TO EXPLAIN THE REJECTION OF ALL

PRAYER-CARDS LAMINATED,JUST THAT IT REJECTS THEM. THE REJECTION OF LAMI­
NATED PRAYER CARDS WITHOUT ANY EXPLANATION CAUSES THE SUBSTANTIAL RELIG­
IOUS BURDEN ON THIS PLAINTIFF AND VIOLATES FREE SPEECH AND EXPRESSION.
THE TRIAL COURT DID NOT TAKE INTO CONSIDERATION OF LAMINATED PRAYER CARDS
REJECTED,AND THE PLAINTIFF PLACED AN EXHIBIT OF A PRAYER CARD LAMINATED.
THE TRIAL COURT AND APPELLATE COURT DID NOT RULE,OR JUDGEMENT ON LAMINA­
TED PRAYER CARDS.
THIS PLAINTIFFS FIRST AMENDMENT AND DUE PROCESS IS BEING VIOLATED BY THE
DEPT.OF CORRECTION WHERE THIS PLAINTIFF ALWAYS PETITIONS AND REDRESSES...
8.

THE VIOLATIONS OF THE DEPT.OF CORRECTIONS.EVERYTIME THIS PLAINTIFF RECIEVES A REJECTION NOTICE,I REDRESS THROUGH THE GRIEVANCE PROCESS. DUE TO
THE SAME REJECTIONS AND ISSUES,THE DEPT.OF CORRECTION BEGAN TO CEASE
GIVING NOTICES FOR EVERY PIECE OF MAIL OF VIOLATION OF PRAYER CARDS
FROM CHURCHS,MISSIONS,ECT,AND THE ENTIRE CORRESPONDENCES WERE SENT BACK
WITHOUT NOTIFICATION TO THIS PLAINTIFF VIOLATING DUE PROCESS OF LAW.
THE PLAINTIFF FOUND OUT THAT THERE WAS NO REJECTION NOTICE GIVEN TO HIM
TO REDRESS THE VIOLATION IS WHEN THE MARIONIST MISSIONS,TRINITY MISSION,
PRISON MINISTRIES NOTIFIED THIS PLAINTIFF THAT THE CORRESPONDENCE WAS
RETURNED,ALSO VIOLATING DUE PROCESS OF SENDER.THIS 1st AMENDMENT VIOLAT­
ION AND DUE PROCESS VIOLATION TO DENY NOTIFICATION IS UNCONSTITUTIONAL.
DUE PROCESS IS THE FUNDAMENTAL PROCESS OF THE U.S.CONSTITUTION OF OUR
JUDICIAL SYSTEM AND REDRESSING VIOLATION OF PROCEDURAL PROTOCOL.THE
MAILROOMS DUE PROCESS VIOLATION IS GOVERNED BY THE CONSTITUTIONS AND ARE
NOT BEING PROPERLY FOLLOWED BY CONNECTICUT CORRECTIONS.THE TRIAL AND AP­
PELLATE COURTS RULINGS ALSO CONDONES THE DUE PROCESS VIOLATIONS,WHERE
THE PLAINTIFF RECIEVED MANY REJECTION NOTICES ON SOME OF THE PRAYER
CARDS,BUT,THERE WERE MORE NOTICES THAT WERE NOT GIVEN. THE TRIAL COURTS
IN THEIR JUDGEMENTS STATED THAT DUE PROCESS DID NOT REQUIRE ITEM-BY-ITEM
NOTIFICATION UNDER THESE CIRCUMSTANCES WOULD SERVE NO PURPOSE EXEPT TO
IMPOSE A SIGNIFICANT,UNNECESSARY ADMINISTRATIVE BURDEN ON PRISON STAFF.
THIS NO DUE PROCESS JUDGEMENT OPENS THE DOOR TO PRISON OFFICIALS NOT TO
SUBJECT TO DUE PROCESS OF STATE AND FEDERAL CONSTITUTIONS DUE PROCESS
REQUIREMENTS.THE TRIAL AND APPELLATE COURTS JUDGEMENT THAT DUE PROCESS
IS ARBITRARY OF THE U.S.CONSTITUTION,AND USED ONLY WHEN REQUIRED.DUE
PROCESS IS THE UNITED STATES CONSTITUTION AND CANNOT BE CIRCUMVENTED
BY THE STATE OF CONNECTICUT WHEN IT PLEASES. THIS UNITED STATES SUPREME
COURT MUST RESPECTFULLY REVIEW ALL ABOVE ISSUES AS A MATTER

OF PUBLIC

INTEREST AS THIS WILL EFFECT OTHER PRISONS OF THIS COUNTRY,U.S.A.
9.

1.) THE PLAINTIFF WAS DENIED HIS CONSTITUTIONAL RIGHTS OF RELIGION,SPEECH,
FREEDOM OF WORSHIP AS CONSCIENCE DEMANDS,RELIGIOUS LITERATURE,AND THE
FREEDOM OF ASSOCIATION OF FAMILY UNDER FEDERAL AND STATE CONSTITUTIONS.
THIS PLAINTIFF PURCHASED USED OUT OF PRINT BOOKS FROM A PUBLISHER WHILE
RESIDING WITHIN NORTHERN CORRECTIONAL A LEVEL#5 MAXIMUM SECURITY FACILITY
AND WAS ALLOWED TO RECIEVE THE USED BOOKS WITHOUT ANY SAFETY AND SECURITY
ISSUES.WHEN THIS PLAINTIFF LATER RESIDED AT A LOWER LEVEL#4 FACILITY THEN
IT BECAME A SAFETY AND SECURITY ISSUE RECIEVING USED OUT OF PRINT BOOKS
FROM A PUBLISHER.THE ENTIRE DEPT.OF CORRECTION MAKES UP ITS OWN POLICY AS
LIESURE TO'FIT THEIR. AGENDA. IN THE UNITED STATES SUPREME COURT PRECEDENT
CASE OF(BELL V.WOLFISH,441,U.S.520,(MAY 14th,1979),HOLDS:WHEREBY A PRACTI­
CE PERMITTED AT ONE PENAL INSTITUTION MUST BE PERMITTED AT ALL PENAL INSTI­
TUTIONS .OPINTON_^Yj_CHIEFVJUSTICE_^EHNQUEST; THERE IS NO IRON CURTAIN DRAWN
BETWEEN THE CONSTITUTIONS AND THE PRISONS OF THIS COUNTRY,OUR CASES HELD '
THAT SENTENCED PRISONERS ENJOY THE FREEDOMS OF SPEECH AND RELIGION UNDER THE
FIRST AND FOURTEENTH AMENDMENTS,THEY ARE PROTECTED AGAINST INVIDIOUS DISC­
RIMINATION ON THE BASIS OF RACE UNDER THE EQUAL PROTECTION CLAUSE OF THE
FOURTEENTH AMENDMENT.OPINION BY:CHIEF JUSTICE REHNQUEST;PUBLISHERS RULE ONLY
HELD THAT THE RULE "SEVERELY AND IMPERMISSIBLY RESTRICTS THE READING MATE­
RIALS AVAILABLE TO INMATES";AND THEREFORE VIOLATES THE FIRST AMENDMENT.
(BUREAU OF PRISONS)-AMENDED ITS PUBLISHERS ONLY RULE,TO PERMIT THE RECIEPT
OF BOOKS AND MAGAZINES FROM BOOKSTORES AS WELL AS BOOK CLUBS AND PUBLISHERS.
IN ADDITION,BUREAU OF PRISONS PROPOSES TO AMEND THE RULE FURTHER TO ALLOW
RECIEPT OF PAPERBACK BOOKS,MAGAZINES,AND OTHER SOFTCOVER MATERIALS FROM ANY
SOURCE. OPINION BY:MR.JUSTICE POWELL;I BELIEVE A REMAND IS UNNECISSARY THAT
INDIVIDUALS HAVE A FUNDAMENTAL RIGHT OF FIRST AMENDMENT TO RECIEVE INFORMA­
TION AND IDEAS BEYOND DISPUTE,(MARTIN V.STRUTHERS,319,U.S.141,143(1943);
(RED LION BROADCASTING CO.V.F.C.C.,395,U.S.367,390(1969)(STANLEY V.GEORGIA,
394 U.S.557,565(1969)(BRANDENBURG V.OHIO,395 U.S.444,448(1969).
10.

THE CONNECTICUT DEPT.OF CORRECTION CANNOT DENY "USED BOOKS" TO PRISONERS
WITHOUT EXAMINING THE LITERATURE AND USING THE DETECTION EQUIPMENT THAT
IT HAS IN ALL ITS FACILITIES AND REJECTING ON THE BASIS OF PRESUMPTION
OF CONTRABAND.THE DEPT.OF CORRECTION IS VIOLATING THIS PLAINTIFFS FIRST
AMENDMENT RIGHTS FREEDOM OF SPEECH,FREEDOM OF THOUGHT,FREEDOM OF IDEAS,FREE­
DOM TO RECIEVE INFORMATION,EXPRESSION,ECT.THIS PLAINTIFFS REJECTION OF USED
OUT OF PRINT BOOKS IS GREATLY IMPEDED BY THE DEFECTIVE CENSORSHIP PROCEDURE
ADMINISTRATION REFUSES TO USE THE DETECTION EQUIPMENT AND CHEMINCAL TESTING
EQUIPMENT TO EXAMINE ANY TYPE OF CONTRABAND AND SUBSTANCES. THIS PLAINTIFF
IS DENIED TO PERSONALLY APPEAR BEFORE A REVIEW BOARD,OR EXAMINE THE USED
OUT OF PRINT BOOKS FOR ITS CONTRABAND,PREJUDICE BY STAFF IS THE NORM TOW­
ARDS INMATES. IN A U.S.DISTRICT COURT CASE OF (COFONE V.MANSON,409,F.SUPP,
(APPEN#(N)-COFONE V.MANSON)
1033(1976),holds;CIVIL ACTION BROUGHT BY AN INMATE IN CONNECTICUT AT SOMERS,
CT.CHALLENGES THE PROCEDURES ADOPTED BY THE CONNECTICUT DEPT.OF CORRECTION
FOR SCREENING INCOMING MAIL.THE INMATE CHALLENGED THE PROCEDURE FOR SCREENI­
NG MAIL AND THE PROCESS TO APPEAL THE REJECTION OF CERTAIN MAIL.THE CRITERIA
«

FOR CENSORING INCOMING PUBLICATIONS WERE OVERBROAD AND INVITED THE OFFICI­
ALS TO APPLY THEIR PERSONAL PREJUDICES AND OPINIONS AS STANDARDS FOR CEN­
SORSHIP. THE APPEAL PROCESS WAS DEFECTIVE BECAUSE A PRISONER,WHO COULD NOT
SEE THE OFFENDING ISSUE,COULD NOT MARSHAL ARGUMENTS IN ITS FAVOR WITH NO
NOTICE OF REJECTION OF A PUBLICATION TO A PUBLISHER,THE INMATE WAS NOT INTITLED TO APPEAR PERSONALLY BEFORE A LIBRARY COMMITTEE TO APPEAL A REJECT­
ION. THIS IS THE SAME SITUATION THAT THE CONNECTICUT DEPT.OF CORRECTION IS
IMPLEMENTING AGAINST THIS PLAINTIFF.THE COURT DECLARED THE CRITERIA FOR THE
REJECTION OF PUBLICATIONS AND THE APPEAL PROCEDURE TO BE VIOLATIONS OF THE
INMATES RIGHTS UNDER THE FIRST AMENDMENT. THE EXISTENCE OF PRISONERS FIRST
AMENDMENT RIGHTS HAS BEEN CONFIRMED BY THE UNITED STATES SUPREME COURT.
THE BURDEN CAN NEVER BE ON THE PRISONER OR PUBLISHER TO OBTAIN APPROVAL
11.

OF A PUBLICATION BEFORE IT WILL BE ALLOWED INTO THE PRISONS.UNDER THE
FIRST AMENDMENT,EVERY ISSUE OF EVERY PUBLICATION RECIEVED AT THE PRISON
IS PRESUMPTIVELY ENTITLED TO ADMISSION.IF OFFICIALS FIND THAT THERE IS
A SERIOUS POSSIBILITY THAT THE PUBLICATION MIGHT MEET ONE OF THE "CRI­
TERIA FOR REJECTION" PROMULGATED BY THE COMMISSIONER...THUS A RESTRIC­
TION ON INMATE CORRESPONDENCE THAT FURTHERS AN IMPORTANT OR SUBSTANTIAL
INTEREST OF PENAL ADMINISTRATION WILL NEVERTHELESS BE INVALID IF ITS SW­
EEP IS UNNECESSARILY BROAD...THE REGULATIONS,AS DID THE REGULATIONS IN
(PROCUNIER V.MARTINEZ),FAIRLY INVITES PRISON OFFICIALS AND EMPLOYEES TO
APPLY THEIR OWN PERSONAL PREJUDICES AND OPINIONS AS STANDARDS FOR PRISON
MAIL CENSORSHIP...THE FIRST AMENDMENT. WILL NOT ALLOW A CATCHALL REGULA­
TION WHICH PERMITS THE EXERCISE OF UNBRIDLED DISCRETION...THE PLAINTIFF
FURTHER CONTENDS THAT HE MUST,AS A MATTER OF DUE PROCESS,BE ALLOWED TO
APPEAR PERSONALLY BEFORE THE LIBRARY COMMITTEE IN ORDER TO PRESENT HIS
ARGUMENTS IN APPEALING A REJECTION.IN CONCLUSION,THE CRITERIA FOR THE RE­
JECTION OF PUBLICATIONS CHALLENGED BY THE PLAINTIFF,AND THE SPECIFIC PARTS
OF THE APPEALS PROCEDURE SET OUT ABOVE ARE DECLARED TO BE VIOLATIONS OF
THE PLAINTIFFS RIGHTS UNDER THE FIRST AMENDMENT,MADE APPLICABLE TO THE ST­
ATES BY THE FOURTEENTH AMENDMENT.SO ORDERED:DATED AT HARTFORD,CT.THIS 17th
DAY OF MARCH 1976.-M.JOSEPH BLUMENFELD/UNITED STATES DISTRICT JUDGE. 1
(SEE ALSO);(PAKA V.MANSON,387 F.SUPP.Ill(D.CONN.1974);(JONES V.MANSONCIVIL NO.15,441(D.CONN.1973). THE SAME VIOLATIONS THAT THE DEPT.OF CORREC­
TION WAS USING THEIR PREJUDICE TOWARDS INMATES IN PRIOR ARE BEING USED TO­
DAY WHERE THE COURT RULED VIOLATIONS OF INMATES FIRST AMENDMENT.THIS PLA­
INTIFF CONTENDS THAT THE DEPT.OF CORRECTIONS ARE IN CONTEMPT AND ARE STILL
REJECTING USED BOOKS/OUT OF PRINT BOOKS AS A PREJUDICE TO THIS PLAINTIFF.
THIS PLAINTIFFS CATHOLIC (3) PRIEST STUDY BOOKS WERE REJECTED ON THE ANI­
MUS OF INMATES AND ON THE PRESUMPTION OF CONTRABAND WITHOUT EXAMINATION.
12.

THE DEPT.OF CORRECTION PLACES IN CONNECTICUT AGAINST INMATES A "BLANKETBAN" ON RELIGIOUS USED BOOKS AND PRAYER CARDS,LAMINATED PRAYER CARDS AND
DOES NOT INFORM THE PLAINTIFF OF REJECTIONS OF MANY OF THE VIOLATIONS AND
PHOTOGRAPHS. IN CASE OF (WILLIAMS V.BRIMEYER,116 f.3d.351,UNITED STATES,
(APPN#(P)-WILLIAMS V.BRIMEYER)
COURT OF APPEALS/8th CIRCUIT),HELD BY:HON:JOHN A.JARVEY);THE INMATE REQUE­
STED THAT THE (CHURCH OF JESUS CHRISTIAN/CJCC),SEND HIM (2) PUBLICATIONS
BOTH OF WHICH WERE WITHHELD FROM THE INMATE BY PRISON OFFICIALS.THE LOWER
COURT FOUND THAT THE PRISON OFFICIALS WERE IMPLEMENTING A (BLANKET BANON PUBLICATIONS) FROM CHURCH OF JESUS CHRIST CHRISTAIN (CJCC),HELD:THE
THE PRISON OFFICIALS LIABLE FOR DENYING THESE MATERIALS,AND AWARDED INMATE
PUNITIVE DAMAGES. THE COURT HELD THAT A BLANKET BAN ON MATERIALS VIOLATED
THE INMATES FIRST AMENDMENT RIGHTS. THE TWO PUBLICATIONS WERE GIVEN A CON­
TRABAND NOTICE WHERE PRISON IMPOSED A BLANKET BAN ON (CJCC).(COURT AFFIRED):JUDGEMENT OF THE LOWER COURT,PROPERLY FOUND THAT THE INMATE WAS DENIED
MAIL THAT THE PRISON OFFICIALS IMPOSED AN UNCONSTITUTIONAL BLANKET BAN.
PUNITIVE DAMAGES ARE AWARDED WHEN DEFENDENTS CONDUCT IS MOTIVATED BY AN
EVIL INTENT OR INTENT OR INVOLVES RECKLESS OR CALLOUS INDIFFERENCE TO A
FEDERALLY PROTECTED RIGHTS OF OTHERS.(CHIEF JUSTICE RICHARD S.ARNOLD OR­
DERED) : THAT WILLIAMS BE ALLOWED TO RECIEVE,READ,POSSES,THE MATERIALS SOUGHT
AND THAT THE BLANKET BAN ON (CJCC) MATERIALS WITHOUT REVIEW OF THEIR INDI­
VIDUAL CONTENT,VIOLATES THE FIRST AMENDMENT.(MURPHY V.MISSOURI DEPT.OFCORRECTIONS,814,f.2d,1252,1257,(8th.CIR.1987),DISTRICT COURT ENTERED AN
INJUNCTION;ASSURING HIS RIGHT TO RECIEVE,READ,AND POSSES THE MATERIALS,AF­
TER AN INDEPENDENT REVIEW OF THE EVIDENCE THE REGULATIONS.... AN EXAGGERA-'
TED RESPONCE TO PRISON CONCERNS.DISTRICT COURT FOUND THAT THE DEFENDENTS
WERE "CALLOUSLY INDIFFERENT TO PLAINTIFF",RIGHT TO READ (CHURCH OF JESUSCHRISTAIN) MATERIALS.(SMITH V.WADE,461 U.S.30,56,75.1.ed.2d.632,103,S.CT.
1625(1983);THE CONDUCT CAN PERMISSIBLY BE DESCRIBED AS (CALLOUS INDIFFER­
ENCE) .
13.

THE DEPT.OF CORRECTION IS ALSO IMPLEMENTING CALLOUS INDIFFERENCE TO
THIS PLAINTIFF REJECTING CATHOLIC PRIEST STUDY LITERATURE AND PRAYER
CARDS USED IN WORSHIP OF THE CATHOLIC RITUAL ’’COMMUNION OF THE SAINTS'.'
THE RIGHT TO READ RELIGIOUS MATERIALS OF CATHOLIC RELIGION IS NOT JU­
ST A RIGHT,BUT,A RELIGIOUS PRACTICE.ONE PERSONS FAITH TO A PRAYER MAY
BE DIFFERENT THAN ANOTHER PERSONS. AS IN THIS PLAINTIFFS COURT WHERE
THE CODE OF CANON LAW STUDY LITERATURE AND THE EUCHARIST CONGRESS OF
SHOWING THE REAL BODY OF CHRIST,MAY BE CENTRAL TO THIS PLAINTIFF,AND
THE TRIAL COURT HONORABLE JUDGE MAY SEE IT DIFFERENT WHERE THE IMPORT­
ANCE OF THE LITERATURE REQUESTED LESS.THE TRIAL COURT RULED THAT:THE
COURT DOES NOT FIND,ON THE RECORD,THAT ANY OF THESE BOOKS CONTAIN IN­
FORMATION THAT IS UNIQUE,UNUSUAL,OR PARTICULARLY DISTINCTIVE IN FORM
OF EXPRESSION OR SUBSTANCE.THE TRIAL COURT JUDGE AND APPELLATE,SUPREME,
COURTS ARE IMPLEMENTING THEIR OWN PERSONAL PREJUDICES AS IN THE (COFONE)
CASE IN CONNECTICUT. PLAINTIFFS TRIAL COURT DOES NOT UNDERSTAND THAT THE
REJECTED CATHOLIC LITERATURE IS FOR THE STUDY OF PRIESTHOOD WERE UNIQUE
TO HIS EDUCATION OF ORDINATION FOR FUTURE PRIESTHOOD. THESE BOOKS WERE
FROM FIFTY TO ONE HUNDRED YEARS OLD AND THE TEACHINGS OF THE PAST ARE NOT
THE SAME AS PRESENT DAYS.THE TRIAL COURT WITHIN ' RULING ELIMINATED THE
CENTRAL FAITH OF THIS

PLAINTIFFS BELIEF AND FAITH. THE CONNECTICUT DEPT.

OF CORRECTION HAS POLICIES THAT DOES NOT NEED APPROVAL FOR SECULAR TEXTS
AND BOOKS BUT REQUIRES PRIOR APPROVAL FOR RELIGIOUS BOOKS. THIS KIND OF
POLICY REFLECTS THAT THE CATHOLIC/CHRISTIAN RELIGION IS A THREAT TO SA­
FETY AND SECURITY WHERE HAVING PRIOR APPROVAL FOR CATHOLIC RELIGIOUS
LITERATURE CONSTITUTES WRITINGS OF CHRIST JESUS AND HOLY MOTHER MARY
IS DEROGATORY AND OFFENSIVE TO THE PUBLIC.THIS IS A POLICY OF THE DEPT.
OF CORRECTION,STAFF,ADMINISTRATION,AS IN (WILLIAMS V.BRIMEYER),THIS IS
EVIL INTENT AND CALLOUS INDIFFERENCE.
14.

AS IN THE CASE OF (BESS V.ALAMEIDA,2007.U.S.DISTRICT COURT)LEXIS63871;
Hon.Judge Dale A.Drozd/UNITED STATES MAGISTRATE JUDGErDECIDED:AUGUST-:
29th,2007;RULED THAT THE PRISON OFFICIALS VIOLATED INMATES RELIGIOUS
FREEDOM BY CENSORING. RELIGIOUS MAIL AND CREATING A SUBSTANTIAL BURDEN ON
INMATES"EXER'CrSE OF RELIGION, MAILROOM STAFF RETURNED RELIGIOUS MAIL TO
SENDER MARKED "UNAUTHORIZEDV WITHOUT NOTICE TO THE INMATE AND IN VIOLA­
TION OF INSTITUTIONAL MEMORANDUM,THIS PLACED A SUBSTANTIAL BURDEN ON
INMATES RELIGION AND VIOLATED THE FIRST AMENDMENT AND (RLUIPA),RLIGIOUS
LAND USE AND INSTITUTIONALIZED PERSONS ACT OF 2000.DEPENDENTS RETURNED
A CATHOLIC INMATES RELIGIOUS BOOK TO SENDER VIOLATED HIS RIGHT UNDER
FIRST AMENDMENT,RLUIPA,AND THE 14th AMENDMENT DUE PROCESS AND EQUAL
PROTECTION CLAUSE. (RULING);THE 9th CIRCUIT CONCLUDED THAT PRISONERS
HAVE A FOURTEENTH AMENDMENT RIGHT DUE PROCESS LIBERTY INTEREST IN RECIEVING NOTICE IF PRISONS WITHHOLD FROM PRISONERS INCOMING MAIL.
(RULING);PLAINTIFFS FIRST AMENDMENT RIGHT AND UNDER RLUIPA,GOVERNING
RELIGIOUS PUBLICATIONS AND MAIL VIOLATED PLAINTIFFS CONSTITUTIONAL AND
STATUTORY LAWS BY IMPOSING SINCERE BURDENS AND RESTRICTIONS ON RELIGIOUS
MAIL AND RELIGIOUS LITERATURE.EQUAL PROTECTION CLAUSE AND RIGHTS BY DI­
SCRIMINATING AGAINST HIM AND OTHER PRISONERS DUE TO PRISON POLICIES.
PRISON OFFICIALS CONSIDERED A CATHOLIC RELIGIOUS TEXT THAT NEEDED APP­
ROVAL AND REGULAR TEXTS DID NOT,CONSTITUTES THAT PRISON OFFICIALS HAD
MADE THE CATHOLIC RELIGIOUS TEXT SECULAR,HE WOULD HAVE RECIEVED THE RE­
LIGIOUS LITERATURE,VIOLATES EQUAL PROTECTION CLAUSE AND FIRST AMENDMENT
FREEDOM OF SPEECH. THIS PLAINTIFF IS SUFFERING THIS SAME KIND OF RELIG­
IOUS BURDEN AGAINST MY CATHOLIC FAITH. I AM FORCED TO PURCHASE ATHEIST
PRAYER CARDS FOR HOLIDAYS,BUT,RECIEVING FREE PRAYER CARDS FROM CATHOLIC
ORGANIZATIONS IS CONTRABAND,AND ALSO THE ENTIRE CORRESPONDENCE IS RE­
JECTED.
15.

THE BOOKS THAT THIS PLAINTIFF REQUIRES FOR PRIESTHOOD STUDIES ARE OLD
AND OUT OF PRINT AND COME FROM A SPECIALTY PUBLISHER ,THE REJECTION OF
USED PRAYER BOOKS MUST BE EXAMINED AND INSPECTED,SO AS NOT TO VIOLATE
THIS PLAINTIFFS RELIGIOUS FREEDOM OF SPEECH. (SHAKER V.SELSKY,391 F.3c1t
106,115-16(2nd.cir.2004),RULED;HOLDING A BAN ON ALL PUBLICATIONS FROM
"UNAUTHORIZED ORGANIZATIONS" WAS A "SHORTCUT" THAT GREATLY CIRCUMSCRIBES
THE UNIVERSE OF READING MATERIALS ACCESSIBLE TO INMATES,AND APPEARS IS
NOT SUFFICIANTLY RELATED TO ANY LEGITIMATE AND NEUTRAL PENOLOGICAL OB­
JECTIVE. THIS PLAINTIFFS WORLD OF CATHOLIC RELIGIOUS STUDY LITERATURE
AND OTHER USED AND OUT OF PRINT PUBLICATIONS,IN LATIN,POLISH,AND OTHER
FORMS THAT WILL ENHANCE THIS PLAINTIFFS FAITH AS A FUTURE PRIEST IS BE­
ING DENIED TO THE CAPACITY WHERE THE DEFENDENTS WANT TO MODIFY THIS
PLAINTIFFS CONSCIENCE DEMANDS OF WORSHIP. THIS TYPE OF FORCED DENIAL
OF FAITH IS CALLOUS AND EVIL TO THE PLAINTIFFS HEARTS DESIRE TO WORSHIP
GOD IN A MODE OF CONSCIENCE DEMANDS OF WORSHIP THAT THIS PLAINTIFF RE­
QUIRES FOR PRIESTHOOD. THE BAN ON THIS PLAINTIFFS NEWSPAPERS AND OTHER
LITERATURE FROM CATHOLIC CHURCHS UNDER THE AUTHORITY OF THE (POPE) IS
ONE THAT VIOLATES THE FIRST AMENDMENT FREEDOM OF SPEECH. THE DENIAL OF
NEWSPAPERS AND LITERATURE FROM PRISON MINISTRIES IS CALLOUS,THIS IS
WHAT PRISON MINISTRIES DO FOR INCARCERATED INDIVIDUALS IS HELP THEM HA­
VE FAITH IN GOD,JESUS,AND MOTHER MARY,THAT LIFE BEING INCARCERATED IS
NOT HOPELESS.PRISON OFFICIALS ONLY WANT INCARCERATED INDIVIDUALS IN
CONNECTICUT TO BE IN DESPAIR.THE REJECTION BY CONNECTICUT PRISON OFFICI­
ALS FROM CATHOLIC ORGANIZATIONS AND PRISON MINISTRIES IS UNCONSTITUTI­
ONAL. (MANN V.SMITH,796 f.2d.79 82-83(5th.cir.1986);BAN ON ALL NEWSPAPERS
AND MAGAZINES VIOLATED FIRST AMENDMENT,(MANICONE V.CORSO,365 f.supp.576,
577(E.D.N.Y1973),BAN ON NEWSPAPERS STATED A CONSTITUTIONAL CLAIM.
16.

(MARTIN V.TYSON,845 f.2d. 1451,1454(5th.cir.1988);BAN ON NEWSPAPERS RAI­
SED A TRIABLE ISSUE.THE DEPT.OF CORRECTIONS BAN ON LEAFLETS,CIRCULARS,
MAGAZINES,BOOKS AND NEWSPAPERS FROM CATHOLIC ORGANIZATIONS IS UNCON­
STITUTIONAL AND DENIES READING MATERIALS TO INMATES THAT ARE POOR AND
HAVE NO FUNDS.POOR INMATES THAT RECIEVE FREE LITERATURE ARE DENIED THEIR
FIRST AMENDMENT RIGHTS TO FREEDOM OF SPEECH UNDER THE FIRST AMENDMENT.
AS THIS IS THE ISSUE OF THIS PLAINTIFF,DENIAL AND REJECTION OF HIS CATH­
OLIC LITERATURE FROM CATHOLIC CHUCHS.(MILLS V.STATE OF ALABAMA,ALA.,1966
86 S.CT.1434,384 U.S.214,16 1.ed.2d.484HOLDS:FREEDOM OF SPEECH IS GRANTED
fv
BY THE FIRST AMENDMENT INCLUDES NOT ONLY NEWSPAPERS,BOOKS,AND MAGAZINES,
BUT ALSO LEAFLETS,CIRCULARS,AND MAGAZINES,THAT ALL FORMS OF LITERATURE
ARE GUARANTEED INTO PRISONS AS TO FREEDOM OF SPEEECH OF FIRST AMENDMENT.
THE TRIAL COURTS JUDGEMENT ON ISSUES THAT INMATES CANNOT RECIEVE LITERA­
TURE FROM CHUCHS,NO RELIGIOUS FREEDOM RULING.THE CONNECTICUT DEPT.OF
CORRECTIONS VIOLATIONS OF MAIL,PUBLICATIONS,GOES BEYOND DUE PROCESS THAT
IS REQUIRED BY LAW.THE ATTORNEY GENERALS OFFICE OF CONNECTICUT THAT DEFEND THE DEFENDENTS IN CIVIL ACTIONS ARE WELL AWARE OF DUE PROCESS OF
LAW,JUDICIAL,AS THIS IS THE CONSTITUTION.THEY WOULD RATHER SEE THE HARM
DONE TO INCARCERATED INDIVIDUALS THAN ADMIT THAT THE POLICIES,REGULATIONS
AND DIRECTIVES ARE UNCONSTITUTIONAL AND DEFECTIVE.THE DEPT.OF CORRECTI. ON: DENIAL OF FAMILY PHOTOGRAPHS WHEN ONLY ONE OR TWO MAY BE QUESTIONABLE
AND THEN DENYING THE OTHER 20+ ACCEPTABLE PHOTOGRAPHS IS DUE PROCESS VI­
OLATION. ALSO,REJECTING THE ENTIRE CORRESPONDENCE BECAUSE A PORTION OF
THAT CORRESPONDENCE FROM FAMILY IS QUESTIONABLE OR UNACCEPTABLE.THE
MAILROOMS WHEN THEY DO FORWARD RARELY A REJECTION NOTICE TO REDRESS,AND
THE INMATE PREVAILS,IT IS SENT BACK TO FAMILY BEFORE THE OUTCOME OF THE
APPEAL.THIS IS ALSO THE SAME WITH LAMINATED PRAYER CARDS,THERE IS NO
PROMULGATION ANTWHERE,AND DEPT.OF CORRECTION JUST STATES:WE CANNOT
17.

HAVE THEM,AND THE PRAYERS ARE DENIED TO THE INMATES ON JUST A MADEUP PO­
LICY. THE DUE PROCESS IS PART OF THE CONSTITUTION SO THAT THE GRIEVER
MAY REDRESS HIS UNCONSTITUTIONAL VIOLATIONS.THE CONSTITUTION OF THE
U.S.A. AND CONNECTICUT,WHAT ARE THEY THERE FOR? TO PROTECT THE RIGHTS
OF ALL CITIZENS FREE AND BOUND.THIS REJECTION IS PRECEDENT IN THE U.S.SUPREME COURT CASE OF CORRESPONDENCES OF (PROCUNIER V.MARTINEZ,416,U.S.
396,417,40 L.ED.2D. 224,94 S.CT.1800(1974),THE PROCEDURAL PART OF PRO­
CUNIER WAS NOT OVERRULED BY (THORNBURG V.ABBOTT).HOLDS:THE DECISION TO
CENSOR OR WITHHOLD DELIVERY OF A PARTICULAR LETTER MUST BE ACCOMPANIED
BY MINIMAL SAFEGUARDS.DUE PROCESS GUARANTEES THAT WHEN A

CONSTITUTIO­

NALLY PROTECTED LIBERTY OR PROPERTY INTEREST IS AT STAKE,BECAUSE,DECIDE
THAT PUBLISHERS AND PRISONERS HAVE A CONSTITUTIONALLY PROTECTED RIGHT
TO RECIEVE SUBSCRIPTION NON- PROFIT ORGANIZATION STANDARD MAIL,IT AL­
LOWS THAT SUCH MAIL MUST BE AFFORDED THE SAME PROCEDURAL PROTECTIONS
AS FIRST CLASS PERIODICALS UNDER REGULATIONS.WE HOLD THAT THE DEPARTMENT
BAN ON STANDARD MAIL IS UNCONSTITUTIONAL,AS APPLIED TO SUBSCRIPTION NON­
PROFIT ORGANIZATION MAIL.DENYING RELIGIOUS MAIL IN NON-PROFIT ORGANIZATIONS IS UNCONSTITUTIONAL. (RULING)BY;JUSTICE POWELL.J.DELIVERED THE
OPINION OF THE U.S.COURT,IN WHICH JUSTICES:BURGER,C.J.,BRENNAN,STEWART,
WHITE,MARSHAL,BLACKMUN,AND REHNQUIST,J.J.,ENJOINED.THE DISTRICT COURT
HELD THESE REGULATIONS UNCONSTITUTIONAL UNDER THE FIRST AMENDMENT,VOID
FOR VAGENESS,AND VIOLATION OF THE 14th AMENDMENT,GUARANTEE OF PROCEDURAL
DUE PROCESS AND IT ENJOINED THEIR CONTINUED ENFORCEMENT.THE COURT REQUIED THAT AN INMATE BE NOTIFIED OF THE REJECTION OF THE CORRESPONDENCE AND
THAT THE AUTHOR OF THE CORRESPONDENCE BE ALLOWED TO PROTEST THE DECISION
AND SECURE REVIEW BY A PRISON OFFICIAL OTHER THEN THE ORIGINAL CENSOR.
THE ISSUE BEFORE THE U.S.SUPREME COURT IS THE APPROPRIATE STANDARD OF
REVIEW FOR PRISON REGULATIONS RESTRICTING FREEDOM OF SPEECH.
18.

#

IN THE CASE OF DIRECT PERSONAL CORRESPONDENCE BETWEEN INMATES AND THOSE
WHO HAVE A PARTICULARIZED INTEREST IN COMMUNICATION WITH THEM,MAIL CENS­
ORSHIP IMPLICATES MORE THAT THE RIGHTS OF PRISONERS.COMMUNICATION BY LE­
TTERS IN NOT JUST ACCOMPLISHED BY THE ACT OF WRITING WORDS ON PAPER,RAT­
HER, IT IS EFFECTED ONLY WHEN THE LETTER IS READ BY THE ADDRESSEE.BOTH
PARTIES TO THE CORRESPONDENCE HAVE AN INTEREST IN SECURING THAT RESULT,A
AND CENSORSHIP OF THE COMMUNICATION BETWEEN THEM NECESSARILY IMPINGES
ON THE INTEREST OF EACH.WHATEVER THE STATUS OF A PRISONER CLAIM TO UN­
CENSORED CORRESPONDENCE WITH AN OUTSIDER,IT IS PLAIN THAT THE LATTERS
INTEREST IS GROUNDED INTO THE FIRST AMENDMENT GUARANTEES OF FREEDOM OF
SPEECH.THIS DOES NOT DEPEND ON WHETHER THE NON-PRISONER CORRESPONDENT
IS THE AUTHOR OR INTENDED RECIPIENT OF A PARTICULAR LETTER,FOR THE ADDRESSE AS WELL AS THE SENDER OF DIRECT PERSONAL CORREPONDENCE DERIVES
FROM THE FIRST AND FOURTEENTH AMENDMENTS AGAINST UNJUSTIFIED GOVERNMEN­
TAL INTERFERENCE WITH THE INTENDED COMMUNICATION;(LAMONT V.POSTMASTERGENERAL,381 U.S.301(1965);(Kleindienst V.Mandel,408 U.S.762-765(1972);
WE DO NOT DEAL HERE WITH DIFFICULT QUESTIONS OF THE SO CALLED "RIGHTTO HEAR" AND THIRD PARTY STANDING,BUT,WITH PARTICULAR MEANS OF COMMUNI­
CATION IN WHICH THE INTEREST OF BOTH PARTIES ARE INEXTRICABLY MESHED.
THE WIFE OF A PRISON INMATE WHO IS NOT PERMITTED TO READ ALL THAT HER
HUSBAND WANTED TO SAY TO HER HAS SUFFERED AN ABRIDGEMENT OF HER INTEREST
IN COMMUNICATING WITH HIM AS PLAIN AS THAT WHICH RESULTS FROM CENSORSHIP
OF HER LETTER TO HIM.IN EITHER EVENT,CENSORSHIP OF PRISONERS MAIL WORKS
A CONSEQUENTIAL RESTRICTION ON THE FIRST AMENDMENT AND 14th AMENDMENT
RIGHTS OF THOSE WHO ARE NOT PRISONERS... THE INTEREST OF PRISONERS AND
THEIR CORRESPONDENTS IN UNCENSORED COMMUNICATION BY LETTER,GROUNDED AS
IT IS IN THE FIRST AMENDMENT,IS PLAINLY A "LIBERTY" INTEREST WITHIN THE

19.

MEANING OF THE FOURTEENTH AMENDMENT EVEN THOUGH QUALIFIED OF THE NECE­
SSITY BY THE CIRCUMSTANCES OF IMPRISONMENT.(BOARD OF REGENTS V.ROTH,408 U.S.564(1972);(PERRY V.SINDERMAN,408 U.S.593(1972).
(OPINION);MR.JUSTICE MARSHALL,WITH WHOM MR.JUSTICE BRENNEN JOINS CONCURR­
ING. (PART#1),I CONCUR IN THE OPINION AND JUDGEMENT OF THE COURT.I WRITE
SEPERATELY ONLY TO EMPHASIZE MY VIEW THAT PRISON AUTHORITIES DO NOT HAVE
A GENERAL RIGHT TO OPEN AND READ ALL INCOMMING AND OUTGOING PRISONER MA­
IL. ALTHOUGH THE ISSUE OF THE FIRST AMENDMENT RIGHTS OF INMATES IS EXPLICITLY RESERVED BY THE COURT,I WOULD REACH THAT ISSUE AND HOLD THAT PRISr
ON AUTHORITIES MAY NOT READ INMATES MAIL AS A MATTER OF COURSE. (PART#2)
AS MR.JUSTICE HOLMES OBSERVED OVER A HALF CENTURY AGO "THE USE OF MAILS
IS ALMOST AS MUCH PART OF SPEECH THAT IS FREE AS THE RIGHT TO USE OUR
TONGUES"...A PRISONER DOES NOT SHED SUCH BASIC FIRST AMENDMENT RIGHTS AT
THE PRISON GATE.RATHER HE RETAINS ALL THE RIGHTS OF AN ORDINARY CITIZEN
EXEPT THOSE EXPRESSLY,OR BY NECSSARY IMPLICATION TAKEN FROM HIM BY LAW.
ACCORDINGLY PRISONERS ARE .IN MY VIEW,ENTITLED TO USE THE MAILS AS A ME­
DIUM OF FREE EXPRESSION,NOT A PRIVILEDGE,BUT RATHER AS A CONSTITUTIONALLY GUARANTEED RIGHT...PRISON WALLS SERVE NOT NERELY TO RESTRAIN OFF­
ENDERS, BUT ALSO TO ISOLATE THEM. THE MAILS PROVIDE ONE OF THE FEW TIES
INMATES RETAIN TO THEIR COMMUNITIES OR FAMILIES,TIES ESSENTIAL TO THE
SUCCESS OF THEIR LATER RETURN TO THE OUTSIDE WORLD.(JUDGE KAUFMAN,WRI­
TING FOR THE SECOND CIRCUIT);FOUND TWO OBSERVATIONS PARTICULARLY APRO­
POS OF SIMILAR CLAIMS OF REHABILITIVE BENEFIT IN (SOSTRE V.McGINNIS,442 f.2d.l78,199(1971);HELD:LETTER WRITING KEEPS THE INMATE IN CONTACT
WITH THE OUTSIDE WORLD,HELPS TO HOLD IN CHECK SOME OF THE MORBIDITY AND
HOPELESSNESS PRODUCED BY PRISON LIFE AND ISOLATION,STIMULATES HIS/HER
MORE NATIRAL AND’HUMAN .IMPULSES,AND OTHERWISE MAY MAKE CONTRIBUTIONS
TO BETTER MENTAL ATTITUDES AND REFORMATION.THE HARM THAT CENSORSHIP DOES
20.

TO REHABILITATION...CANNOT BE GAINSAID.INMATES LOSE CONTACT WITH THE
OUTSIDE WORLD AND BECOME WARY

OF PLACING INTIMATE THOUGHTS OR CRITI­

CISM OF THE PRISON IN LETTERS. THIS ARTIFICIAL INCREASE OF ALIENATION
FROM SOCIETY IS ILL ADVISED. THE COURT AGREES TODAY THAT "THE WEIGHT OF
PROFFESSIONAL OPINION" SEEMS TO BE THAT INMATES FREEDOM TO CORRESPOND
WITH OUTSIDERS ADVANCES RATHER THAN RETARDS,THE GOAL OF REHABILITATION.
BALANCED AGAINST THE STATES ASSERTED INTERESTS ARE THE. VALUES THAT ARE
GENERALLY ASSOCIATED WITH "FREEDOM OF SPEECH",IN A FREE SOCIETY VALUES
WHICH,"DO NOT TURN TO DROSS IN AN UNFREE ONE",(SOSTRE V.McGINNIS),FIRST
AMENDMENT GUARANTEES PROTECTION OF THE FREE AND UNINTERRUPTED INTERCH­
ANGE OF IDEAS UPON WHICH A DEMOCRATIC SOCIETY THRIVES.PERHAPS THE MOST
OBVIOUS VICTIM OF THE INDIRECT CENSORSHIP EFFECTED BY A POLICY OF ALLOW­
ING PRISON AUTHORITIES TO READ INMATE MAIL IS CRITICISM OF PRISON ADMIN­
ISTRATION. THE THREAT OF IDENTIFICATION AND REPRISAL INHERENT IS ALLOWING
CORRECTIONAL AUTHORITIES TO READ PRISONERS MAIL IS NOT LOST ON INMATES
WHO MIGHT OTHERWISE CRITISIZE THEIR JAILORS.THE MAILS ARE ONE OF THE FEW
VEHICLES PRISONERS HAVE FOR INFORMING THE COMMUNITY ABOUT THEIR EXISTANCE AND,INTHESE DAYS OF STRIFE IN OUR CORRECTIONAL INSTITUTIONS,THE PL­
IGHT OF PRISONERS IS A MATTER OF URGENT.PUBLIC CONCERN. "TO SUSTAIN A
POLICY WHICH CHILLS THE COMMUNICATION NECESSARY TO INFORM THE PUBLIC ON
THIS ISSUE IS AT ODDS WITH THE MOST BASIC TENENTS OF THE GUARANTEE OF
FREEDOM OF SPEECH". THE FIRST AMENDMENT NOT ONLY SERVES THE NEEDS OF THE
POLITY,BUT ALSO THOSE OF THE HUMAN SPIRIT,A SPIRIT THAT DEMANDS SELF EX­
PRESSION. SUCH EXPRESSION IS AN INTEGRAL PART OF THE DEVELOPMENT OF IDEAS
AND A SENSE OF IDENTITY.TO SUPPRESS EXPRESSION IS TO REJECT THE BASIC
HUMAN DESIRE FOR RECOGNITION AND AFFECT THE INDIVIDUALS WORTH AND DIG­
NITY. SUCH RESTRAINT MAY BE "THE GREATEST DISPLEASURE AND INDIGNITY TO
FREE AND KNOWING SPIRIT THAT CAN

BE PUT UPON HIM".

21.

(J.MILTON,AEROPAGITICA 21(EVERYONES ED.1927).WHEN THE PRISON GATES SLAM
BEHIND THE INMATE,HE DOES NOT LOSE HIS HUMAN QUALITY,HIS MIND DOES NOT
BECOME CLOSED TO IDEAS,HIS INTELLECT DOES NOT CEASE TO FEED ON A FREE
AND OPEN INTERCHANGE OF OPINIONS,HIS YEARNING AND SELF RESPECT ARE MORE
\

COMPELLING IN THE DEHUMANIZING PRISON ENVIROMENT.WHETHER A O'HENRY IS
WRITING HIS SHORT STORIES IN A JAIL CELL OR A FRIGHTENED YOUNG INMATE
WRITING HIS FAMILY,A PRISONER NEEDS A MEDIUM OF SELF EXPRESSION. IT IS
THE ROLE OF THE FIRST AMENDMENT AND THIS SUPREME COURT OF THE UNITED
STATES TO PROTECT THOSE PRECIOUS PERSONAL RIGHTS BY WHICH WE SATISFY SU­
CH BASIC YEARNING OF THE HUMAN SPIRIT. (MR.JUSTICE DOUGLAS CONCURRING IN
JUDGEMENT);I HAVE JOINED PART#2 OF MR.JUSTICE MARSHALLS OPINION BECAUSE
I THINK IT MAKES ABUNDANTLY CLEAR THAT FOREMOST AMOUNG THE BILL OF RIGHTS
OF PRISONERS IN THIS COUNTRY,WHETHER UNDER STATE OR FEDERAL DETENTION IS
THE FIRST AMENDMENT.PRISONERS ARE STILL "PERSONS" ENTITLED TO ALL CONST­
ITUTIONAL RIGHTS UNLESS THEIR LIBERTY HAS BEEN CONSTITUTIONALLY CURT­
AILED BY PROCEDURES THAT SATISFY ALL OF THE REQUIREMENTS OF DUE PROCESS.
WHILE MR.CHIEF JUSTICE HUGHS IN (TROMBERG V.CALIFORNIA,283 U.S.359):
STATED;THAT THE FIRST AMENDMENT WAS APPLICABLE TO THE STATES BY REASON
OF THE DUE PROCESS CLAUSE OF THE FOURTEENTH AMENDMENT,IT HAS BECOME CUS­
TOMARY TO REST ON THE BROADER FOUNDATION OF THE ENTIRE FOURTEENTH AMEN­
DMENT. FREE SPEECH AND FREE PRESS WITHIN THE MEANING OF THE FIRST AMENDM­
ENT ARE,IN MY JUDGEMENT,AMOUNG THE PREMINENT PRIVILEDGES AND IMMUNITIES
OF ALL CITIZENS FREE AND BOUND IN OUR COUNTRY. THE STATE OF CONNECTICUT
DEPT.OF CORRECTION VIOLATES THIS PLAINTIFFS FIRST AMENDMENT RIGHTS AND
FREEDOM OF SPEECH IN ITS TOTALITY.THEY SUPPRESS RELIGIOUS PRAYER CARDS,
RELIGIOUS LITERATURE,NEWSPAPERS,PHOTOS FROM FAMILY,PRAYER BOOKS USED FOR
STUDY OF PRIESTHOOD,CIRCULARS,PAMPHLETS,LAMINATED PRAYER CARDS,EVEN MA­
TERIALS THAT ARE NOT RELIGIOUS.THIS IS CAUSED DUE TO THE MAILROOM NOT
22.

USING DETECTION EQUIPMENT IN MAILROOMS TO EXAMINE ALLOWABLE CONTENTS,WH­
ERE IT IS EASIER TO REJECT ON THE PRESUMPTION OF CONTRABAND WITHOUT TE<

STING THE MATERIAL.TO REJECT USED OUT OF PRINT BOOKS,LETTERS,PHOTOS,PRA­
YER CARDS,ECT,FROM INMATES IS TO SUPPRESS EXPRESSION IS TO REJECT THE :
BASIC HUMAN DESIRE FOR RECOGNITION OF WORTH AND DIGNITY OF A HUMAN BEING.
TO DENY PHOTOS FROM FAMILY TO SEE LOVED ONES IS TO CLOSE OFF THE SENCES
OF THE INCARCERATED INDIVIDUAL,LETTERS,AND INTIMATE FEELINGS THAT ARE
REJECTED BY PRISON OFFICIALS.TO BE.A NATION THAT TURNS THEIR PRISON SYS­
TEMS INTO A DESPOTIC' GOVERNMENTAL SOCIETY, IS TO DENY THE FREE SPIRIT OF
MAN WHICH IS ABSOLUTE INHIS HEART AND THEN BECOMES THE DENIAL OF THE
WORSHIP OF GOD OUR CREATOR AS CONSCIENCE DEMANDS OF WORSHIP OF ONES FAI­
TH. THE TRIAL COURT SEES THAT THE INMATES HAVE NO CONSTITUTIONAL RIGHT
UNDER' THE FIRST AMENDMENT IN WHICH THE INMATES HAVE NO LIBERTY OF FREEDOM
OF SPEECH AND PRESS.AS CHIEF JUSTICE REHNQUIST STATED IN (BELL V.WOLFISH),
THERE IS NO IRON CURTAIN BETWEEN THE CONSTITUTION AND THE PRISONS OF
THIS COUNTRY.THE RELIGIOUS EXERCISE OF THIS PLAINTIFF IN THE REJECTIONS
OF THE PLAINTIFFS VIOLATES HIS RELIGIOUS FREEDOM AND RIGHTS WHICH ARE
CENTRAL TO THIS PLAINTIFFS FAITH AND IT IS BEING DENIED. (ROWE V.DAVIS,373 f.supp.2d. 822,825-826,(N.D.IND.2005);HELD:"READING RELIGIOUS LITERRATURE MAY NOT BE COMPELLED BY OR CENTRAL TO MR.ROWES SYSTEM OF RELIGIO­
US BELIEF,BUT HE ALLEGES THAT IT IS A PART OF HIS RELIGIOUS EXERCISE OF
RELIGION,READING RELIGIOUS LITERATURE IS A PRACTICE AND EXPRESSES HIS
RELIGIOUS BELIEFS.THEREFORE READING RELIGIOUS LITERATURE IS A RELIGIOUS
EXERCISE". THIS PLAINTIFFS EXERCISE OF RELIGION TO READ USED STUDY PR­
IESTHOOD BOOKS,PRAYER CARDS,LAMINATED PRAYER CARDS,RELIGIOUS MISSIVES
WITH PRAYER CARDS,ECT,IS A RELIGIOUS PRACTICE.THE CONNECTICUT DEPT.OF
CORRECTION IS VIOLATING THIS PLAINTIFFS FIRST AMENDMENT AND FOURTEENTH
AMENDMENT RIGHTS TO FREEDOM OF RELIGION AND FREE EXERCISE CLAUSE.
23.

2.) DEPENDENTS VIOLATE (R.L.U.I.P.A.) RELIGIOUS LAND USE AND INSTITUT­
IONALIZED PERSONS ACT OF 2000,FORCING PLAINTIFF TO MODIFY HIS RE­
LIGIOUS BELIEFS TO ADHERE INTO A RELIGION THAT IS ATHEIST.
THE DEPENDENTS ARE FORCING THIS PLAINTIFF TO PURCHASE ATHEIST CARDS TH­
AT HAVE NOTHING TO DO WITH THE TRUE BELIEFS OF THIS PLAINTIFFS RELIGION
OF RELIGIOUS HOLIDAYS SUCH AS EASTER,CHRISTMAS,HALLOWEEN,ST.PATRICKS DAY
AND OTHER CHRISTIAN OBSERVANCES. THE DEFENDENTS SELL CARDS FOR EASTER
WITH RABBITS,CHRISTMAS CARDS WITH SANTA CLAUSE,HOLLOWEEN CARDS WITH MO­
NSTERS ON THEM,ST.PATRICKS DAY CARDS WITH LEPRICONS ON THEM. THIS IS NOT
THE PLAINTIFFS CATHOLIC BELIEFS,THE BELIEFS OF PLAINTIFF IS THAT CHRIST­
MAS IS THE BIRTH OF CHRIST JESUS,EASTER CHRIST DIED ON THE CROSS FOR OUR
SINS,HOLLOWEEN IS ALL SOULS DAY EVE OF THE COMMUNION OF SAINTS WITH LO­
VED ONES,ST.PATRICKS DAY IS A IRISH PRIEST THAT HELPED THE POOR. THE DE­
PENDENTS ARE FORCING THIS PLAINTIFF INTO A ATHEIST RELIGION.ATHEISM IS A
RELIGION. (MALNAK V.YOGI,440 F.SUPP.1284(1977)(U.S.DISTRICT-SOOURT OFNEW JERSEY);HOLDS:ATHEISM IS A RELIGION AS IN "SCIENCE OF CREATIVE IN­
TELLIGENCE", WHERE THERE IS BELIEF IN NO GOD.THE DEFENDENTS ARE FORCING .
THIS PLAINTIFF TO MODIFY HIS RELIGIOUS BELIEFS AS IN THE CASE OF (WARSOLDIER V.WOODFORD,418 f.3d.989(9th.cir.2005);HOLDS:A SUBSTANTIAL BURDEN
ON RELIGIOUS EXERCISE UNDER THE RELIGIOUS LAND USE AND INSTITUTIONALIZED
PERSONS ACT OF 2000,HAS BEEN FOUND WHERE THE STATE DENIES AN IMPORTANT
BENEFIT BECAUSE OF CONDUCT MANDATED BY RELIGIOUS BELIEF,THEREBY PUTTING
SUBSTANTIAL PRESSURE ON AN ADHERENT TO MODIFY HIS BEHAVIOR AND TO VIOLA­
TE HIS BELIEFS.ALTHOUGH SUCH COMPULSION MAY BE INDIRECT,THE INFRINGEMENT
UPON PREE EXERCISE IS NONETHELESS SUBSTANTIAL.PUNISHMENTS TO COERCE A ■ '
RELIGIOUS ADHERENT TO FORGO HIS OR HER RELIGIOUS BELIEFS IS AN INFRINGE­
MENT ON RELIGIOUS EXERCISE.TO DENY THIS PLAINTIFFS RELIGIOUS OUT OF PRI­
NT "USED BOOKS" AND FORCE HIM TO PURCHASE HOLIDAY CARDS THAT ARE ATHEIST
IS PUNISHMENT.THE PLAINTIFF EVEN REQUESTED PERMISSION FROM THE DIRECTOR
24.

OF RELIGIOUS SERVICES AND IT WAS DENIED TO ANY OUT OF PRINT USED BOOKS
(APPN#(L)-DENIAL OF RELIGIOUS BOOKS/DIR.RELIGIOUS SERVICES).
FROM THE PUBLISHER,IN WHICH ARE PROHIBITED,PER DIRECTOR OF RELIGIOUS SE­
RVICES. IN (CUTTER V.WILKINSON),OPINION BY:JUSTICE GINSBERG;NO GOVERN(APPN#(0)--CUTTER V.WILKINSON)
MENT SHALL IMPUSTT'A' SUBSTANTIAL BURDEN ON THE EXERCISE OF A PERSON RE­
SIDING IN OR CONFINED TO AN INSTITUTION.... IN A VARIETY OF DIFFERENT WAYS
INCLUDING,RETALIATION OR DISCRIMINATION AGAINST THEM FOR EXERCISING THE­
IR NON-TRADITIONAL FAITHS,DENYING THEM ACCESS TO RELIGIOUS LITERATURE...
THE ACT DEFINES "RELIGIOUS EXERCISE",TO INCLUDE "ANY EXERCISE OF RELIGION",WHETHER OR NOT COMPELLED BY,OR CENTRAL TO,A SYSTEM OF RELIGIOUS
BELIEF...BEFORE ENACTING SECTION#3 OF (RLUIPA) CONGRESS DOCUMENTED IN
HEARINGS SPANNING (3) YEARS,THAT "FRIVOLOUS" OR ARBITRARY BARRIERS IMPE­
DED INSTITUTIONALIZED PERSONS RELIGIOUS EXERCISE.SEC.146.CONG.REC.16698,
16699(2000),JOINT STATEMENT OF SEN.HATCH AND SEN.KENNEDY OF (RLUIPA)/
HEREAFTER,IGNORANCE,BIGOTRY,OR LACK OF RESOURCES,SOME INSTITUTIONS RESTICT RELIGIOUS LEBERTY IN EGREGEOUS AND UNNESSASARY WAYS. (CONCURRING IN­
JUDGEMENT/JUSTICE SANDRA DAY 0'CONNER);REMOVAL OF GOVERNMENT IMPOSED
BURDENS ON RELIGIOUS EXERCISE IS MORE LIKELY TO BE PERCIEVED "AS AN ACC­
OMODATION OF THE EXERCISE OF RELIGION". (CONCURRING/JUSTICE CLARENCETHOMAS);CONGRESS HAS NO AUTHORITY TO INTERFERE IN THE ESTABLISHMENT OF
RELIGION WHATSOEVER...CONGRESS SHALL MAKE NO LAWS TOUCHING RELIGION,OR
INFRINGING THE RIGHTS OF CONSCIENCE. THE CONNECTICUT DEPT.OF CORRECTION
VIOLATES THE (RLUIPA) IN':ITS TOTALITY,AS JUSTICE GINSBERG RULED;PRISONS
CANNOT RETALIATE OR DISCRIMINATE AGAINST ANY INMATE AND DENYING ACCESS
TO RELIGIOUS LITERATURE.THE DEPT.OF CORRECTION REJECTS EVERYTHING RELIG­
IOUS, USED RELIGIOUS BOOKS WITHOUT REVIEWING ITS CONTENTS,RELIGIOUS PRAY­
ER CARDS,RELIGIOUS LAMINATED PRAYER CARDS ,CHURCH NEWSPAPERS,LEAFLETS,ECT.
AS IN (WILLIAMS V.BRIMEYER),REJECTING RELIGIOUS LITERATURE IS CALLOUS,
EVIL INTENT,WITH NO RESPECT FOR CATHOLIC/CHRISTAIN FAITH AND THE HUMAN
25.

DIGNITY OF THE FAITHFUL ADHERENT.THE CONNECTICUT DEPT.OF CORRECTION VI­
OLATES THIS PLAINTIFFS WORSHIP AS CONSCIENCE DEMANDS.THE CONSCIENCE DE­
MANDS OF WORSHIP IS ALSO WITHIN THE CONNECTICUT CONSTITUTION/ARTICLE#7STATES:(IT IS THE RIGHT OF ALL MEN TO WORSHIP THE SUPREME BEING,THE GREAT
CREATOR AND PRESERVER OF THE UNIVERSE,AND TO RENDER THAT WORSHIP IN A
MODE CONSISTANT WITH THE DICTATES OF THEIR CONSCIENCES)...BOTH

THE

(RLUIPA) AND .CONNECTICUT CONSTITUTION ARTICLE#7 PROTECT AS CONSCIENCE
(APPN#(Q>CONNECTICUT CONSTITUTION/ATICLE#7-RELIGION)
DEMANDS OF THE FAITHFUL ADHERENT,AND THIS PLAINTIFF IS BEING DENIED IN
ITS TOTALITY HIS CONSCIENCE TO WORSHIP GOD. THE TRIAL COURT DID NOT TAKE
INTO CONSIDERATION OF THE PLAINTIFFS SINCERE RELIGIOUS FAITH THAT IS LO­
NG TIME CENTRAL TO THE WORSHIP OF THIS FUTURE CATHOLIC PRIEST.THE PLAIN­
TIFF WAS FORCED BY THE TRIAL COURT TO MODIFY HIS RELIGIOUS BELIEFS TO
CONFORM WITH THE STATE OF CONNECTICUT DEPT.OF CORRECTION ATHEIST POLICY,
AND ATHEIST COMMERCIAL LITERATURE AND HOLIDAY CARDS WITH NO RELIGIOUS
SIGNIFIGENCE.THE DEFENDENTS,TRIAL COURT,AND APPELLATE COURT ARE VIOLAT­
ING THIS PLAINTIFFS (RLUIPA). THE SECOND CIRCUIT CITED TO THE STANDARDS
IN (HOLT V.HOBBS,135 S.CT.853(2015),Held;THAT COURTS NEED NOT ACCEPT THE
GOVERNMENTS CLAIMS THAT ITS INTEREST IS COMPELLING ON ITS FACE,AND THAT
EVIDENCE OF A ’•POLICIES" UNDERINCLUSIVENESS RELATIVE TO "ANALOGOUS",
NONRELIGIOUS CONDUCT MAY CAST DOUBT ON BOTH WHETHER THE GOVERNMENTS ASSE­
RTED INTEREST IS COMPELLING AND WHETHER THAT POLICY ACTUALLY IS THE LEA­
ST RESTRICTIVE MEANS FURTHERING THAT INTEREST. THE SECOND CIRCUIT OBSER­
VED THAT (RLUIPA) CODIFINED CONGESS' PREFERENCE THAT PRISONS MAY HAVE TO
INCUR additional costs to accommodate prisoners religious freedoms.
WOLFISH V.LEVI,573,f.2d,118(2nd.cir.1978);HELD:THE SIMPLE OPPORTUNITY TO.
READ A BOOOK,OR WRITE A LETTER,WHETHER IT EXPRESSES POLITICAL VIEWS OR
ABSENT AFFECTIONS,SUPPLIES A VITAL LINK BETWEEN THE INMATE AND THE OUT­
SIDE WORLD,AND NOURISHES THE PRISONERS MIND DESPITE THE BLANKNESS AND
26.

BLEAKNESS OF HIS ENVIROMENT. THE TRIAL COURT OF THE PLAINTIFF IGNORED
RULINGS AND DECISIONS OF MANY JUSTICES OF U.S.SUPREME COURT THAT ALLOW­
ING USED RELIGIOUS BOOKS AS A MEANS OF FREE SPEECH AND THAT THE RIGHTS
OF THIS PLAINTIFFS 1st AMENDMENT FREE SPEECH IS PROTECTED AND CANNOT BE
IMPEDED BY A PRISON POLICY THAT USES "SAFETY AND SECURITY",TO HIDE BEHI­
ND CONSTITUTIONAL VIOLATIONS AS DOES THE CONNECTICUT DEPT.OF CORRECTIONS
WITH THE HELP OF THE ATTORNEY GENERALS OFFICE WITH ANIMUS.THIS PLAINTIFF
AS CONSCIENCE DEMANDS RELIGIOUS FREEDOM IS IMPEDED AND VIOLATED.
3.) DEFENDENTS AND CONNECTICUT CORRECTIONAL MAILROOMS HAVE SOPHISTICATED
DETECTION EQUIPMENT TO ANALYZE MAIL,PACKAGES,CONTRABAND,CHEMICALS,
AND DO NOT USE THEM,INSTEAD ON PRESUMPTION REJECTING MAILS BIASLY.
THE DEFENDENTS ON PRESUMPTION (BELIEVE),AS ARTICULATED ON THEIR NOTICE
OF REJECTIONS,THAT REJECTING MAIL,PHOTOGRAPHS,UNKNOWN SUBSTANCES,STAINS,
GLITTERS,THAT EVERYTHING THAT COMES INTO FACILITIES IS TAINTED WITH DRU­
GS , CONTRABAND WITHOUT INSPECTION,AND OTHER REJECTED REASONS WITHOUT TES­
TING THE SO CALLED "CONTRABAND".DEFENDENTS REJECTION OF MAIL IS BASED ON
ONLY THE PRESUMPTION AND BELIEVE THAT INMATE MAILS HAVE SUBSTANCES ON
THEM THAT ARE ILLEGAL.THE DEPT.OF CORRECTION CIRCUMVENTS THE PROCESS OF
ACTUALLY TESTING TO SAVE TIME,AND AT THE SAME TIME VIOLATING PRISONERS
1st AMENDMENT FREEDOM OF SPEECH OF SENDER AND RECIPIENT,(PROCUNIER V.MA­
RTINEZ). THE DEFENDENTS HAVE MADE UP LANGUAGE WITHOUT ANY TYPE OF PROMU­
LGATION UNDER DUE PROCESS VIOLATION TO JUSTIFY ITS VIOLATION OF SPEECH
OF PRISONERS.THE LANGUAGE UNPROMULGATED AND INSERTED TO REJECT CORREPONDENCES WITHOUT TESTING IS A VIOLATION,PER:"ADMINISTRATIVE DIRECTIVE
(AD),SECTION#4(G)-l&2-lk:CRAYON,COLORED PENCIL,MARKER,LIPSTICK AND SUB(APPN#(j)-REJECTION DIRECTIVE/BELIEVE LEETERS CONTAIN DRUGS).
STANCES THAT CAN BE SCRATCHED,PULLED,OR LICKED OFF,ECT,BELIEVED, TO CO­
NTAIN THE ABOVE,WHICH IS REASONABLY RELATED TO A LEGITAMATE PENOLOGICAL
INTEREST.THE DEFENDENTS MADE UP REJECTION STICKERS OF THE ABOVE LANGUAGE
ARE NO WHERE TO BE FOUND IN ANY DIRECTIVE AND ONLY EXIST ON MADE-UP
27.

STICKERS TO REJECT ALL MAIL WITH PREJUDICE.DEPENDENTS ALSO INSERT ON THE
MADE-UP STICKERS OF REJECTION THE WORD,(ECT),WHICH MEANS ANYTHING MORE
THAT THE CORRECTIONS FEELS LIKE CAN BE REJECTED UNDER THE DISCRETION AND
PREJUDICE OF THE MAIL INDIVIDUAL THAT IS HANDLING THE PRISONERS MAIL.
THIS ALLOWS PERSONAL PREJUDICE (COFONE V.MANSON),WITHOUT ANY DUE PROCESS
TO GOVERN PROPER INSPECTION OF MAIL,WHERE STAFF CAN REJECT MAIL AS THEY
PLEASE AND PLACE THEIR OWN PERSONAL PREJUDICES.IN 1978,NEARLY (41) YEARS
AG07THE DEPT.OF CORRECTIONS MAIL REGULATIONS WERE IN ACCORDANCE WITH THE
1st AMENDMENT FREEDOM OF SPEECH. IN THEIR (,1978_) MAIL REGULATION/D IREC-\
(APPN#(F)-CONNECTICUT CORRECTIONS 197B-4fATL REGULATIONS-DIRECTIVE).
TIVE,THE DEPT.OF CORRECTION HAD A POLICY ON PAGE#1-SEC#1,STATED:THE DEPT.
OF CORRECTION REGUARDS CONTACT WITH FAMILIES AND FRIENDS AS A VITAL MEC­
HANISM FOR MAINTAINING AND STRENGHTENING MEANINGFUL TIES OUTSIDE THE IN­
STITUTION ... TO MAXIMIZE FREE EXPRESSION...ENHANCE THE INMATES SENSE OF
PRIVACY AS WELL AS ENCOURAGE THE FREE AND OPEN EXCHANGE OF INFORMATION,
OPINIONS,IDEAS. TODAYS CONNECTICUT DEPT.OF CORRECTION,UNLIKE IN (1978)
IS A NIGHT AND DAY CORRECTION WHERE THE 1st AMENDMENT OF SPEECH MEANT AS
IT SHOULD,BUT,TODAY ITS A CORRECTIONS OF PREJUDICE,BIGOTRY,AND ONE THAT
BELIEVES INCARCERATED INDIVIDUALS DO NOT HAVE A RIGHT TO 1st AMENDMENT
FREEDOM OF SPEECH. THE CORRECTIONS IN (1978)OF THEIR MAIL REGULATIONS
(PG#2-SEC#4(B) AND 4(B)(4),INSPECTED PROPERLY INMATES MAIL,SO AS TO THE­
IR PHILOSOPHY OF INSURING INMATES INFORMATION FROM FAMILY,OPINIONS AND
IDEAS, AND USED PLUROSCOPIC,X-RAY,OR OTHER DETECTION DEVICES (PG#2,SEC#4(B)(4), TO ENSURE THAT ALL MAIL WAS INSPECTED FOR CONTRABAND AND NOT ON
THE PRESUMPTION (BELIEVE) OF CONTRABAND AND REJECTING WITHOUT EXAMINING
AND NOT USING SOPHISTICATED DETECTION DEVICES IN MAILROOMS THEY RETAIN.
THE DEPT.OF CORRECTION TODAY WOULD RATHER DESTROY INFORMATION,OPINIONS,
AND IDEAS OF INCARCERATED INDIVIDUALS THEN ALLOW THE FREE SPEECH OF ALL
PRISONERS.PREJUDICE OF RELIGIOUS INDIVIDUALS LIKE CATHOLICS/CHRISTAINS
28.

IS THE NORM INSIDE AND OUTSIDE OF MAILROOMS AS THE REJECTIONS OF RELI­
GIOUS MAIL AND LITERATURE.THE CONNECTICUT DEPT.OF CORRECTIONS MUST USE
ALL THEIR RESOURCES AND BEGIN AGAIN TO EXAMINE AND ANALYZE ANY QUESTION­
ABLE MAIL AND NOT REJECT ALL MAILS IN PRESUMPTION AND BELIEVE THERE IS
ALWAYS CONTRABAND.THE MAILROOMS MUST INSPECT,EXAMINE,AND SEPERATE ALL
MAILS FOR CONTRABAND AND NON-CONTRABAND INSTEAD OF REJECTING,OUT QF PR(APPN#(K)-REJECTION NOTICES OF OUT OF PRINT/USED LITERATURE).
INT USED BOOKS,PRAYER CARDS,LAMINATED PRAYER CARDS,PHOTOGRAPHS,CHILDS
DRAWING COLORED,LETTERS FROM FAMILY.REJECTING EVERYTHING WITHOUT ANY OR
ALL MAIL WITHOUT PROPER INSPECTION VIOLATES THE 1st AMENDMENT AND 14th
(APPN#(.G)-DIRECTIVE 10.7/
INMATE COMMUNICATIONS).
AMENDMENT OF THE UNITED STATES CONSTITUTION.
4.) THE TRIAL COURT JUDGE HON.STEVEN ECKER WAS ELEVATED TO THE CONNEC­
TICUT SUPREME COURT AS A JUSTICE,THE APPELLATE COURT WOULD NOT OVER
TURN THE VIOLATIONS OF THE SUPREME COURT JUSTICE THAT PRIOR WAS A
SUPERIOR COURT JUDGE OF HIS JUDGEMENT,PLAINTIFF HAD NO CHANCE IN
IN ALL THE COURTS IN CONNECTICUT TO OBTAIN IMPARTIAL RULING.
THE PLAINTIFFS TRIAL COURT JUDGE HON.STEVEN D.ECKER,AT THE SUPERIOR COURT
OF NEW HAVEN,CT. WAS THE RULING JUDGE AT THE SUPERIOR COURT LEVEL IN
PLAINTIFFS 2017 BENCH TRIAL.HON.STEVEN D.ECKER,RULED FOR THE DEFENDENTS.
A YEAR LATER AFTER HON.ECKER DISMISSED THIS PLAINTIFFS CASE,HON ECKER
WAS ELEVATED TO THE SUPREME COURT OF CONNECTICUT.PLAINTIFF RECIEVED A
COPY FROM THE CONNECTICUT SUPREME COURT POSTED ON ORIGINAL CASE DOCKET#
NNH-CV16-5036776S/134.00,A LETTER FROM THE CONNECTICUT CHIEF JUSTICE OF
SUPREME COURT THAT THE HON«ECKER COMPLETE ALL HIS OUTSTANDING CASES AT
THE SUPREME COURT LEVEL PRIOR TO PERMANENT POSITION IN SUPREME COURT AS
JUSTICE,LETTER DATED:JUNE 8th,2018.(ENCLOSED).AFTER THE HON.ECKER DIS­
MISSED THIS PLAINTIFFS CASE AT THE SUPERIOR COURT LEVEL,THIS PLAINTIFF
PROPERLY APPEALED TO THE CONNECTICUT APPELLATE COURT. THIS PLAINTIFF WAS
BEFORE APPELLATE COURT JUDGES:SHELDON,ELGO,DEVLIN,AND AFTER BRIEF WAS FI­
LED AND ORAL ARGUMENT PRESENTED,THE JUDGES AFFIRMED JUSTICE STEVEN D.ECK­
ER RULING IN ALL ASPECTS INWHERE THE JUDGES WOULD NOT OVERRULE A JUSTICE.
29.

THIS PLAINTIFF/APPELLANT AFTER THE APPELLATE COURT AFFIRMED JUSTICE ECKER RULING WHEN HE WAS SUPERIOR COURT JUDGE,THIS APPELLANT APPEALED
TO THE CONNECTICUT SUPREME COURT AND FILED:PETITION FOR CERTIFICATION,
WHERE JUSTICE ECKER IS POSITIONED THERE AS JUSTICE. AFTER SUPREME COURT
DENIED MY APPEAL TO HEAR MY CASE WHERE JUSTICE ECKERS RULING WOULD HAVE
BEEN OVERRULED. PLAINTIFF RECIEVED ORDER OF CERTIFICATION DENIAL DATED:
OCTOBER 6th,2020. IN THE ORDER THE CLERK/APPELLATE-ROBERTSON STATED:
ECKER,J.,(JUSTICE),DID NOT PARTICIPATE IN THE COSIDERATION OF OR DECI­
SION ON THIS PETITION. PLAINTIFF IMMEDIATELY FILED FOR (MOTION FOR RECONSIDERATION-EN BANC),TO THE SUPREME COURT AND WAS DENIED BY ORDER:
DATED: DECEMBER71st,2020.IN THAT ORDER THE. SAME CLERK/APPELLATE-ROBERTSON STATED:ECKER,J..DID NOT PARTICIPATE IN THE CONSIDERATION OF OR DEC­
ISION ON THIS MOTION-EN BANC. ON BOTH THE PETITION FOR CERTIFICATION &
MOTION FOR EN BANC,JUSTICE ECKER DID NOT PARTICIPARE IN THE RULINGS.
JUSTICE STEVEN D.ECKER,THAT DISMISSED MY CASE AS A SUPERIOR COURT JUDGE
AND THEN ELEVATED TO JUSTICE OF SUPREME COURT IN HAVING THE APPELLATE
■

COURT OF CONNECTICUT OVERRULE JUSTICE ECKERS RULING AS SUPERIOR COURT
JUDGE IS IMPOSSIBLE IN CONNECTICUT. THE CONNECTICUT APPELLATE COURT &
SUPREME COURT ARE ALL TOGETHER IN SAME CHAMBERS AND DAILY ASSOCIATE AS
JUDGES ON DAILY BASIS. THE APPELLATE JUDGES THAT RULED IN MY CASE ARE
NEVER GOING TO OVERRULE A ONCE SUPERIOR COURT JUDGES RULING THAT IS NOW
A JUSTICE. LIKEWISE,WHEN THIS APPELLANT FILED FOR EN BANC BY THE ENTIRE
SUPREME COURT,AND IF THEY GRANTED IT EN BANC,JUSTICE ECKER WOULD BE THE
ONLY ONE ELIMINATED FROM EN BANC BECAUSE HE RULED ON THIS PLAINTIFFS
CASE. THIS PLAINTIFF/APPELLANT HAS NO CHANCE TO A FAIR TRIAL IN CONNEC­
TICUT THAT IS NOW BEFORE THE UNITED STATES SUPREME COURT. THIS PETITIO­
NER FOR CERTIORARI TO U.S.SUPREME COURT MUST UNDERSTAND THAT CONNECTICUT
JUDGES AND JUDGES AS IN THIS PLAINTIFFS UNIQUE CASE WHERE THE ORIGINAL
30.

f

JUDGE BECAME JUSTICE,AND THE APPELLATE COURT AND SUPREME COURT JUDGES
AND JUSTICES WOULD HAVE TO OVERTURN A JUSTICES RULINGS WOULD NEVER BE
ALLOWED TO HAPPEN,EVEN IF THE JUSTICE ECKER RULING WERE INCORRECT.
THIS PLAINTIFF CONTENDS THAT DUE TO THAT HON.STEVEN D.ECKER,THAT RULED
AS SUPERIOR COURT JUDGE AND DISMISSED THIS CASE,AND AFTER APPELLATE COU­
RT APPEALS,AND CERTIFICATION,AND EN BANC,ALL DENIED. THERE IS NO IM­
PARTIAL RULING THAT THIS PLAINTIFF APPELLANT WOULD HAVE RECIEVED IN THE
ENTIRE CONNECTICUT COURTS FROM SUPERIOR,APPELLATE,AND SUPREME COURTS.
AS THE SUPREME COURTS DENIAL ON BOTH AT THESE HIGH LEVEL CONNECTICUT
CERTIFICATIONS AND EN BANC,THIS PLAINTIFF HAD NO CHANCE TO A FAIR AND
IMPARTIAL TRIAL IN CONNECTICUT AND PRAYS THAT THE UNITED STAES SUPREME
COURT WOULD UNDERSTAND THE PREJUDICE AGAINST THIS PETITIONER BY CONNEC­
TICUT AND GRANTS THIS PETITIONER CERTIORARI IN THE U.S.SUPREME COURT,
AND PROPERLY RULES ON THE PROTECTIONS OF THE U.S.CONSTITUTION THAT ALL
CITIZENS IN THE UNITED STATES RECIEVE UNDER DUE PROCESS FREE AND BOUND.
5:) STATEMENT OF RELIEF REQUESTED.
1.) REMOVE LANGUAGE OF;DIRECTIVE/10.7/INMATE COMMUNICATION:PG#8(S£C#(N),
(AN INMATE MAY ORDER BOOKS IN NEW CONDITION ONLY FROM PUBLISHER.
2.) REMOVE LANGUAGE OF;DIRECTIVE 10.8/RELIGIOUS SERVICES:PG#4,SEC#4(I)(J),
(DONATED RELIGIOUS ARTICLES AND ITEMS SHALL NOT BE PERMITTED FROMANY SOURCE (I).MATERIALS MUST BE IN NEW CONDITION ONLY,IN ACCOR­
DANCE 10.7/INMATE COMMUNICATIONS (J).
3.) REMOVE LANGUAGE OF;DIRECTIVE 10.7/INMATE COMMUNICATIONS,PG#5,SEC#,
(G)(1)(H),ENVELOPES WITH OR WITHOUT POSTAGE STAMPS.
4.) ALLOW USED BOOKS;FROM PUBLISHERS,BOOK CLUBS,RELIGIOUS ORGANIZATIONS,
CHURCHS,ECT,AFTER DELIVERY TO CORRECTIONAL INSTITUTION TO INSPECT,
EXAMINE,TEST FOR SUBSTANCES,ONCE APPROVED PLACE INSPECTED STICKER.
5.) ALLOW USED BOOKS;FROM UNIVERSITIES,COLLEGES,SEMINARIES,ORGANIZATIONS,
EDUCATIONAL ACADEMIC LITERATURE ORGANIZATIONS FOR THE PURPOSE OF GRA­
DUATION OF UNIVERSITIES/COLLEGES,MAIL CORRESPONDENCE COURCES WITH US­
ED BOOKS TO STUDY FROM,ECT,FOR ACADEMIC EDUCATIONAL CREDENTIALS.
THE USED EDUCATIONAL BOOKS AND LITERATURE FROM ACADEMIC SOURCES ARE TO
BE INSPECTED,EXAMINED,TESTED,AND ONCE APPROVED INSPECTED STICKER.
(INSPECTED AND APPROVED)
31.

6.) ALLOW CATHOLIC AND DENOMINATIONAL CHRISTIAN PRAYER CARDS WITH MA­
TCHING ENVELOPES. FROM CHURCHS,ORGANIZATIONS,MISSIONS,ECT.
7.) ALLOW NEWSPAPERS,MAGAZINES,LEAFLETS,PAMPHLETS,PRAYER BOOKS,CIRCUL­
ARS , ECT] FROM:. CHIRCHS, MISSIONS, CHARITIES, ECT, UNDER THE AUTHORITY OF
THE (POPE),SUPREME PONTIFF IN ROME,ITALY.(INSPECTED STICKER).
8.) ALLOW COLORED DRAWINGS,PICTIRES DRAWN IN CRAYONS,COLORED PENCIL,
ART PAINT BY FAMILY CHILDREN,FRIENDS,AND TEST THE ARTWORK FOR ALL
TYPES OF SUBSTANCES,AND PLACE INSPECTED STICKER.
9.) ALLOW ELAMINATED PRAYER CARDS AND NON-RELIGIOUS ELAMINATED PRAYER
CARDS FROM FUNERALS,CHUCHS,MISSIONS,ECT.(PLACE INSPECTED STICKER).
10.) SEPERATE PICTURES FROM FAMILY AND FRIENDS,WHERE ONE (1) IS REJEC­
TED, NOT TO REJECT ALL THE PHOTOGRAPHS WHEN ONE IS QUESTIONABLE.
FORWARD ALL NON-REJECTED PHOTOS TO INMATE AFTER INSPECTION.
11.)'SEPERATE1 MAIL;FORWARD REJECTION NOTICE TO INMATE AND SENDER PER
DUE PROCESS AND NOT DESTROY,FORWARD TO SENDER WITHOUT NOTICE AND
AFTER INSPECTION FORWARD TO INMATE., .
12.) ALL CORRECTIONAL MAILROOMS WITHIN CONNECTICUT TO USE ONCE INSPECTED
APPROVED/INSPECTED STICKERS OR INK STAMPS ON INMATE MAILS,PACKAGES,
AFTER INSPECTION,SO AS TO NOT VIOLATE 1st AMENDMENT FREEDOM OF SP­
EECH.
13.) INJUNCTION-CEASE VIOLATING ABOVE CONSTITUTIONAL RIGHTS-ORDER.
14.) DECLARATORY JUDGEMENT-CEASE VIOLATING ABOVE CONSTITUTIONAL RIGHTS.
ORDER.
15,) OTHER REMEDIES AS THE U.S.SUPREME COURT SEES JUSTIFIABLE.
16.) REIMBURSEMENT OF FEES , COPIES., FILING FEES , ATTORNEY FEES/§1988 , ECT.
X.

REASONS FOR GRANTING CERTIORARI

A.) TO AVOID CONSTITUTIONAL DEPRIVATIONS OF INCARCERATED INDIVIDUALS
ACROSS THE ENTIRE UNITED STATES OF THEIR CONSTITUTIONALLY PROTECTED
1st AMENDMENT AND 14th AMENDMENT RIGHTS OF FREE SPEECH,EXPRESSION.
FREEDOM OF ASSOCIATION,AND PROTECTING INCARCERATED FROM VIOLATIONS.
THE GRANTING OF CERTIORARI AND RELIEF WILL SERVE THE PUBLIC INTEREST
BECAUSE IT IS ALWAYS IN THE PUNLIC INTEREST FOR PRISON OFFICIALS TO OBEY
THE LAW,ESPECIALLY THE CONSTITUTION.(PHELPS-ROPER V.NIXON,545 f.ed.685,
690(8th.cir.2008);(DURAN V.ANAYA,642 f.supp,510,527(D.N.M.1986):"RESP­
ECT FOR LAW,PARTICULARLY BY OFFICIALS RESPONSIBLE FOR THE ADMINISTRATION
OF STATES CORRECTIONAL SYSTEM,IS IN ITSELF A MATTER OF THE HIGHEST...
32.

PUBLIC INTEREST'.'(LLEWELYN V. OAKLAND COUNTY PROSECUTORS OFFICE, 402 , f. supp.
1379,2393(E.D.MICH.1975):HOLDS;THE CONSTITUTION IS THE ULTIMATE EXPRES­
SION OF THE PUBLIC INTEREST. INCARCERATED INDIVIDUALS HAVE CONSTITUTIO­
NAL RIGHTS UNDER THE FIRST AND FOUTEENTH AMENDMENTS UNLESS IT IS TAKEN
AWAY UNDER DUE PROCESS OF LAW. INCARCERATED HAVE CONSTITUTIONAL RIGHTS.
XI.

CONCLUSION

FOR THE FOREGOING REASONS,CERTIORARI SHOULD BE GRANTED IN THIS CASE.

DATED THIS

1st

DAY OF DECEMBER

RESPECTFULLY SUBMIT’E

(APPN#(R)-LUKE:21:24-25).

gawl^ktIanTm./ PRO-SE
C.C.I.
900 HIGHLAND AVENUE
CHESHIRE,CT.06410
(203)651-6257
ARGUING COUNSEL
OF RECORD

9

33.

,2020.

